<html>
<title> - THE POLITICAL FUTURE OF AFGHANISTAN</title>
<body><pre>[Senate Hearing 107-236]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-236
 
                   THE POLITICAL FUTURE OF AFGHANISTAN
=======================================================================



                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2001
                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate






                        U.S. GOVERNMENT PRINTING OFFICE
77-065                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr.,   Delaware, Chairman
PAUL S. SARBANES, Maryland              JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut        RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts            CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin          GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota            BILL FRIST, Tennessee
BARBARA BOXER, California               LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey        GEORGE ALLEN, Virginia
BILL NELSON, Florida                    SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West Virginia   MICHAEL B. ENZI, Wyoming
    

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  











                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     3
Gailani, Fatima, Advisor, National Islamic Front of Afghanistan..    48
Gouttierre, Thomas E., Dean of International Studies and Director 
  of the Center for Afghanistan Studies, University of Nebraska, 
  Omaha, NE......................................................    37
Haass, Hon. Richard N., Director of Policy Planning Staff and 
  U.S. Coordinator for the Future of Afghanistan, Department of 
  State, Washington, DC..........................................    13
    Prepared statement...........................................    16
    Responses to additional questions for the record.............    58
Helms, Hon. Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................     5
Rocca, Hon. Christina, Assistant Secretary for South Asian 
  Affairs, Department of State, Washington, DC...................     6
    Prepared statement...........................................    10
Wellstone, Hon. Paul, U.S. Senator from Minnesota, prepared 
  statement......................................................    25

                                 (iii)

  












                  THE POLITICAL FUTURE OF AFGHANISTAN

                              ----------                              


                       THURSDAY, DECEMBER 6, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:38 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., (chairman of the committee) presiding.
    Present: Senators Biden, Wellstone, Boxer, Helms, Lugar, 
Hagel, Chafee, Allen and Enzi.
    The Chairman. The hearing will come to order. I say to the 
witnesses, both panels, that the Senate schedule is obviously 
going to intervene and interfere, as it usually does here.
    We have two very distinguished panels of witnesses, the 
first representing the administration and then a second panel. 
We are going to, I am told, although I never believe it until 
it happens, have two to three successive votes beginning at 11 
o'clock, which if that were the case we would have to recess 
for probably 20 minutes in order to be able to get those votes 
in. But sometimes they announce that and it does not occur, as 
I know Richard and Christina know, having worked here and know 
this place.
    Let me begin by thanking my colleague Senator Wellstone for 
suggesting and pushing we have this hearing. Our timing 
apparently--as my father used to always say, still says, better 
to be lucky than good. We were a little worried, Richard, I was 
a little worried, calling you up here while things were still 
in train might confuse things. But I am glad it worked out.
    The past few weeks have been eventful indeed. The success 
of the war effort in Afghanistan has caused some considerable 
celebration, has silenced some skeptics, at least temporarily--
you never totally silence them--and has been celebration, not 
just here, but in Kabul and also throughout the region.
    I want to applaud the administration, our coalition 
partners, and above all the men and women we have out there who 
are still as we speak fighting and some dying.
    Yesterday we received a stark reminder just how tough this 
is--I know my friend from Nebraska knows firsthand what it is 
like--when three Americans were killed and 19 were wounded. 
Pray God that will be the end of that, but it is not likely 
that will be the case in my view. So our thoughts and prayers 
are with the families of the wounded and killed.
    But it also reminds us that this war is not over. Not 
only--we keep talking about a second stage here, that we are 
preoccupied with what we are going to do, if we do anything, in 
Iraq or Somalia or anywhere else in the world. I think there is 
a second or third stage in Afghanistan yet to go. The next 
stage in Afghanistan is to complete our mission of wiping out 
al-Qaeda in that country, as well as capturing and-or killing 
Osama bin Laden, and our military has got a very hefty order 
and hefty job cut out for them there.
    But then we have to get to what we want to talk about in 
this hearing, and that is once Kandahar, which it appears as 
though reports are may be ready to surrender the Taliban and 
once, God willing, we succeed in our mission regarding al-Qaeda 
and bin Laden, what then?
    I have been impressed from the outset by my discussions 
with the President of the United States, my personal and 
private discussions with him, how he has, as long ago as the 
day or 2 days after our campaign started in Afghanistan, had 
already begun the process with the two people in front of us of 
trying to figure out what we do after the fact. So this is not 
something that the administration is just thinking about as we 
sit here now, and I give the President great credit for that, 
and his willingness to talk about, although we do not use the 
word, the phrase, any more, ``nation-building,'' talk about 
putting in place a situation, a circumstance that there can be 
some stability in a country that has been ravaged by war and 
drought and famine for a long time and to put their neighbors 
at ease that there is a prospect for this occurring, for if we 
do not we are in real trouble.
    We have to facilitate the creation of the regime--Mr. 
Chairman--that adequately represents all the Afghans, women as 
well as men, Pashtuns and Tajiks and Uzbeks and Hazaras. They 
all have to be part of the deal, and we have to help lay that 
foundation so the Afghan Government does not slide back into 
warlordism and anarchy that existed in the past. As I said, we 
have to do it in a way that calms down the neighbors, who do 
not have the same interests as one another do.
    Now, I am going to forego the rest of my statement and just 
suggest that the news out of Bonn seems--it exceeded my 
expectations, the decisions they reached, and it stretches 
slightly my faith that we will be able to do it on the ground. 
I imagine the news was not greeted with enthusiasm in Kabul, 
but who knows.
    So what we are going to want to talk about is where you are 
now, where the administration thinks we have arrived in terms 
of a new government, and also a question that cannot remain 
unanswered very long, is what sort of security framework are we 
prepared to try to help put in place. For I for one think one 
is urgently needed. I do not think there is any other 
substantive steps, whether political or humanitarian, that are 
going to be likely to be able to be taken on the ground without 
a robust, combat-ready force able and fully authorized to 
establish safety and stability in Afghanistan.
    The headlines in all the major papers today are full of 
stories relating not only to the success in Bonn, but also to 
the desperate circumstance for refugees, displaced persons in 
Afghanistan, particularly northern Afghanistan, discussion 
about whether or not the Friendship Bridge will be opened and, 
if it is, is there safe passage. The bottom line of all this is 
it seems to me that--and this is what I want to talk about 
today--is there is little prospect of meeting the next stage of 
needs in Afghanistan without a security force on the ground.
    Turkey has indicated again--the Secretary has indicated to 
us previously--Turkey has indicated again today that they are 
ready to send forces. I am told that Indonesia and Bangladesh 
may as well be prepared to do that. Or it may be a UN-approved 
coalition of the willing drawn partly from NATO countries.
    Our first panel has been following and affecting 
developments both in Afghanistan and in Bonn, where 
negotiations appear to have yielded fruit. I look forward to 
their report on the progress toward establishing both a lasting 
political agreement and a truly effective security framework. 
Only in a secure environment can we make real progress toward 
reconstructing Afghanistan.
    When I say reconstructing, I know folks back home in my 
state think we are talking about rebuilding some--this is not, 
we are not rebuilding Sarajevo or Sofia. We are trying to do--
our goal from my discussions with the President, and I assume 
it is the same, are to be in a position where there is 
education in the schools for girls and boys alike, where we are 
going to be digging wells and irrigation canals and paving 
roads, establishing medical clinics, and clearing up the most 
heavily land-mined country on earth. We are not building 
palaces or large and great parliamentary buildings. We are just 
trying to get this place back to the point where there is a 
prospect of the ability to govern, and you need to be able to 
communicate to govern.
    All this, though, is going to take a lot of money, 
according to the Secretary General. He indicates the cost will 
be more than $10 billion over 5 to 10 years, and I have heard 
similar estimates from officials at the World Bank and a 
variety of private NGO's and some within the administration.
    Now, President Bush has been clear on the need for American 
leadership here. There is a task, though, that is not only 
ours. It is a task for the world community. But the United 
States has been leading. I expect it will continue to lead, and 
I would suggest it has to lead or this is not going to get 
done.
    The world's attention is now focused on Afghanistan, but it 
will not be for long. If the President's pledge is to carry 
real weight, it needs to be fleshed out right away. How much 
money is the United States willing to commit, for what 
programs, and where will the funds come from?
    I for one am committed to helping the President keep the 
promise he so generously and wisely made. The future of 
Afghanistan is and must be in the hands of the Afghan people 
themselves. But we must do all we can to lead the world to 
assist Afghanistan in the task of rebuilding their country, 
their society, and their lives, so that we do not end up on the 
short end of the failure that occurs in Afghanistan if it were 
to occur again.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    The past few weeks have been eventful ones, indeed. The success of 
the war effort in Afghanistan is a cause for celebration and has 
silenced some skeptics--at least temporarily, as you never totally 
silence them--not just in Kabul or Washington, but all through the 
region. I applaud the Administration, our coalition partners, and above 
all--the brave men and women of the military who are still, as we 
speak, fighting--and some, dying.
    Yesterday we received a stark reminder of just how tough this is: 
Three American soldiers were killed, and 19 were wounded, in combat 
near Kandahar. I pray that it will be the end of that, and our thoughts 
and prayers are with the families of the wounded and killed.
    It also reminds us that this war is far from over. We keep talking 
about a second stage, and we're preoccupied with what we're going to 
do--if we do anything--in Iraq or Somalia or anywhere else in the 
world. But I think there's a second and third stage yet to come in 
Afghanistan. The next stage is to complete our mission of wiping out 
al-Qaeda and capturing or killing Osama bin Laden. And then, we have to 
get to what we're here to discuss today in this hearing.
    I've been impressed from the outset in my private discussions with 
the President of the United States how he--as long ago as two days 
after the campaign started in Afghanistan, he had already begun the 
process, along with two of our witnesses today, to figure out what we 
were going to do after the fact. So this is not just something that the 
Administration is thinking about as we sit here now--and I give the 
President great credit for that, and his willingness for us to put in 
place a circumstance allowing some stability in a country that has been 
ravaged by war and drought and famine for a long time, and put its 
neighbors at ease. For if we don't we are in real trouble.
    We must facilitate the creation of a regime that adequately 
represents ALL Afghans--women as well as men, Pashtuns and Hazaras as 
well as Tajiks and Uzbeks. We must help lay the foundations of a stable 
government, so that Afghanistan does not slide back into the warlordism 
and anarchy of the past.
    The news out of Bonn exceeded my expectations, and stretched 
slightly my faith that we will be able to bring about stability on the 
ground. What we will want to talk about today is where the 
Administration thinks we have arrived in terms of a new government in 
Afghanistan, and what sort of security framework we are prepared to 
help put in place--for I, for one, think such a framework is urgently 
needed.
    All the major papers today are full of stories relating not only to 
the success in Bonn, but also to the desperate circumstance for 
refugees and displaced persons within Afghanistan, particularly in the 
north. The bottom line of all this is there is little prospect of 
meeting the next stage of needs in Afghanistan without a multi-national 
security force on the ground. Turkey indicated again today that they 
are willing to send forces, and Indonesia and Bangladesh may be 
willing, as well. Or it may be comprised of a United Nations 
``coalition of the willing'' drawn partly from NATO countries.
    Our first panel has been following developments both in Afghanistan 
and in Bonn, where negotiations appear to have yielded fruit. I look 
forward to their report on progress towards establishing both a lasting 
political agreement and a truly effective security framework.
    Only in a secure environment can we make real progress toward 
reconstructing Afghanistan. We are not rebuilding Sarajevo or Sofia. 
Our goal is to be in a position where there is education for girls and 
boys alike, where we're going to be digging wells and irrigation 
canals, paving roads, establishing medical clinics, and clearing up the 
most heavily land-mined country on earth. We're not building palaces or 
great parliamentary buildings, we're just trying to get this place back 
to the point where there's a prospect of the ability to govern.
    All of this, though, is going to take a lot of money. According to 
U.N. Secretary General Kofi Annan, it will cost more than $10 billion, 
over the course of perhaps 5-10 years. I've heard similar estimates 
from officials in the World Bank, a variety of private NGOs, and the 
same within the U.S. Administration.
    President Bush has been clear on the need for American leadership 
here. This is a task for the world community--but the United States has 
been leading, it will continue to lead, and I would suggest that it has 
to lead, or this is not going to get done.
    The world's attention is now focused on Afghanistan--but it won't 
be for long. If the President's pledge is to carry real weight, it 
needs to be fleshed out right away. How much money is the U.S. willing 
to commit? For what programs? And where will the funds come from?
    I, for one, am committed to helping the President keep the promise 
he so generously--and wisely--made.
    The future of Afghanistan is, and must be, in the hands of the 
Afghan people themselves. But we must do all we can to lead the world 
to assist the Afghans in the task of rebuilding their country, their 
society, and their lives.

    The Chairman. I yield to my friend Senator Helms.
    Senator Helms. Thank you, Mr. Chairman. All of us 
appreciate your scheduling this significant hearing. We hold a 
lot of hearings that could be postponed, but this one need not 
be postponed, it must not be.
    Before we begin our consideration of the political 
questions before us today, I sort of feel obliged to express 
our appreciation to our military and homeland defense forces. 
They are serving the American people well and I am proud of 
them and I know everybody in this room is. From the Capitol 
Police on the corner of First and C to the Marines outside of 
Kandahar, they are giving heart and soul to their country and 
America's values.
    This has been going on a long time in this country and I 
suppose as long as this country exists it will be going on from 
time to time.
    Now, we are here today, as you have indicated yourself, Mr. 
Chairman, to discuss the political future of Afghanistan or, 
perhaps more realistically, the political future of 
Afghanistan--question mark, is it going to continue. Now, one 
of the reasons Osama bin Laden is in Afghanistan today is 
because the United States--and let us be candid about it--the 
United States walked away from victory after the fall of the 
Soviet occupation. The massacres and counter-massacres that 
followed the Soviet departure made the Taliban look appealing 
to the Afghan people.
    Now that victory is in hand again, we are back to status 
quo ante bellum: the same players, same power vacuum, same 
rivalries. The Bush administration and the United Nations 
knocked heads to force the factions to agree. This was in 
Germany this week when they got together. But how are we going 
to continue to make them agree? Who is going to do it?
    Some have suggested we need a peacekeeping force in 
Afghanistan, to which there is a one-word answer and it is 
pronounced ``Somalia.'' Anti-Taliban warlords are already 
fighting each other for control of the liberated areas of 
Afghanistan. The Russians wasted no time landing a contingent 
in Kabul, or ``KOB-ble,'' as some pronounce it. The Iranians as 
usual will be up to no good, and the Pakistanis have interests 
that may or may not necessarily coincide with us in 
Afghanistan.
    So these two folks and the others to follow you are the 
experts, and I personally appreciate your being here and I 
appreciate you being willing to testify.
    Now, how can we enfranchise the Afghans and disenfranchise 
the busybodies in the region who made such a mess of the place? 
That is to be determined. How do we use all the goodwill we 
have won by freeing the people of Afghanistan without being 
trapped in another fruitless nation-building nightmare? Boy, 
you sure do have your work cut out for you, and I look forward 
to hearing what you are going to do.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Helms follows:]

               Prepared Statement of Senator Jesse Helms

    Mr. Chairman, I appreciate your scheduling this significant 
hearing.
    Before we begin our consideration of the political questions before 
us today, I feel obliged to express our appreciation to our military 
and homeland defense forces. They are serving the American people well 
during this time of crisis.
    I'm proud of the men and women serving our country. From the 
Capitol police on the corner of First and C to the Marines outside 
Kandahar, they are giving heart and soul for their country and 
America's values.
    We are here today to discuss the political future of Afghanistan, 
or, perhaps more realistically, the ``political future of Afghanistan--
question mark.''
    One of the reasons Osama bin Laden is in Afghanistan today is 
because the United States walked away from victory after the fall of 
the Soviet occupation. The massacres and counter-massacres that 
followed the Soviet departure made the Taliban look appealing to the 
Afghan people.
    Now that victory is at hand again, we're back to status quo ante 
bellum--same players, same power vacuum, same rivalries.
    The Bush Administration and the United Nations knocked heads to 
force the factions to agree in Germany this week. But how are we going 
to make them continue to agree? Who's going to do it?
    Some have suggested we need a peacekeeping force in Afghanistan, to 
which there is a one-word answer: Somalia.
    Anti-Taliban warlords are already fighting each other for control 
in liberated areas of Afghanistan. The Russians wasted no time landing 
a contingent in Kabul; the Iranians, as usual, will be up to no good. 
And the Pakistanis have interests that may not necessarily coincide 
with ours in Afghanistan.
    You folks are the experts: How can we enfranchise the Afghans and 
disenfranchise the busybodies in the region who have made such a mess 
of the place? How do we use all the goodwill we have won by freeing the 
people of Afghanistan without being trapped in another fruitless 
``nation-building'' nightmare?
    You have your work cut out for you, and I look forward to hearing 
your observations.

    The Chairman. Mr. Chairman, if you will excuse the attempt 
at humor here, I was telling Richard, who you and I know, all 
of us know very well, have known for a long time, have great 
respect for, I said: Congratulations. I said: You have got your 
work cut out for you. I said: It reminds me of that story of 
the guy who jumps off the ninetieth floor of a building and the 
guy on the fiftieth floor sees him going by and yells out and 
says: How are you doing? He says, he responds back: So far, so 
good.
    But I have more optimism. Richard, it was a joke, only a 
joke.
    With that, let us move on to our witnesses. We have two 
very distinguished witnesses from the administration: 
Ambassador Richard M. Haass, Director of Policy and Planning 
Staff of the Department of State; and Christina Rocca, who is 
the Assistant Secretary for South Asian Affairs of the 
Department of State, who is an old hand around here, and we are 
delighted to have her back.
    I might note parenthetically that I personally appreciate 
the access and cooperation I have had when I have had 
questions, and particularly you I have been bugging, Christina, 
since it is your area of the world, and I appreciate it very 
much. You have been very helpful.
    However you would like to proceed, however you would like 
to do it, please.

  STATEMENT OF HON. CHRISTINA ROCCA, ASSISTANT SECRETARY FOR 
    SOUTH ASIAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON DC

    Ms. Rocca. I will go first. Thank you, Mr. Chairman.
    Senator Helms. Move your microphone so we can hear you. 
Thank you.
    Ms. Rocca. Is that better? There we go.
    Mr. Chairman, distinguished members of the committee: It is 
my privilege to appear before you today with Ambassador Haass 
to discuss the political situation in post-Taliban Afghanistan. 
I will be brief and restrict my remarks to providing an overall 
perspective on the political situation, as well as the current 
state of our provision of humanitarian assistance. Ambassador 
Haass will cover reconstruction and security matters.
    Mr. Chairman, as we speak American troops are in combat on 
Afghan soil and the United States is engaged in three closely 
linked efforts: to isolate and destroy UBL's al-Qaeda 
organization and its affiliates, both in Afghanistan and 
elsewhere; to decapitate the Taliban regime that harbored al-
Qaeda and other terrorist groups; and to assist the people of 
Afghanistan to restore freedom, prosperity, and good governance 
to their country.
    The elimination of bin Laden and his associates from 
Afghanistan will be followed by a longer, internationally 
supported process that aims to rebuild and bring lasting 
stability to the war-torn country to prevent it from being safe 
haven for terrorists in the future. Ousting the Taliban 
leadership and helping the Afghan people form a broad-based 
representative government are high priorities in this process.
    These tasks will not be easy, as you have said, and we 
recognize that, especially given the ethnic and regional 
divisions within Afghanistan that Senator Helms referred to. It 
is not for us, however, to choose who rules Afghanistan. It is 
not for us to choose who rules Afghanistan, but we will assist 
those who seek a peaceful nation free of terrorism.
    Well before September 11, the United States had been 
working with the United Nations, with a number of other 
governments, and with the Afghan factions and with Afghan 
groups outside their home country to develop a process of 
national reconciliation through a traditional Afghan grand 
council, or Loya Jirga. Together with our partners in this 
initiative, we developed a set of guiding principles for a 
successor government that continue to have meaning. It should 
be broad-based and representative of Afghan's diverse ethnic 
and religious groups. It should preserve the unity and 
territorial integrity of the country. It should protect the 
human rights of all its citizens, including women. It should 
not pose a threat to any of its neighbors or near neighbors, 
and it must not harbor international terrorists or export 
illegal drugs.
    I am pleased to be able to report today that Afghanistan's 
future is looking brighter than it has in many years. December 
5 marked the conclusion of the U.N. talks in Bonn, which 
succeeded in pulling together Afghan groups with widely 
differing views and agendas and coming up with a framework for 
an interim government in Afghanistan, as well as a place for 
the long-term future of that country. We recognize that there 
is much hard work still to be done.
    The international community is reviewing ways to support 
the Interim Authority and the process leading to establishment 
of a permanent, multi-ethnic, broad-based, gender-inclusive 
government. There are meetings this week in Berlin separate 
from the Bonn talks and later this month in Brussels and these 
will focus attention on this important issue.
    Afghanistan's neighbors also play a critical role in 
helping support this process. They are front line states for 
terrorism, narcotics, and refugee problems emanating from 
Afghanistan and their role in backing the transition will be 
very important.
    During this time of crisis, we have been most grateful for 
the support we have been receiving from the countries in South 
and Central Asia. Many have become key partners and joined a 
wider coalition of nations committed to stopping terrorism in 
its tracks. Pakistan has taken on a crucial role in support of 
our war in Afghanistan. One should not underestimate the 
serious political risks President Musharraf took in doing so. 
His bold position at such a critical juncture in international 
history will be remembered and recognized for a long time to 
come.
    India's immediate and generous offers of cooperation also 
have been greatly appreciated by this administration. India has 
also suffered from Taliban-inspired terrorism and we recognize 
not only its offers of support to the coalition, but also their 
generous plans to provide humanitarian assistance to the Afghan 
people.
    Tajikistan has provided staging areas for humanitarian and 
other operations which serve as crucial launching points for 
humanitarian assistance deliveries into Afghanistan. 
Turkmenistan has set up a humanitarian depot and the U.N. is 
flying in food shipments for further delivery to Afghanistan. 
Iran has been helpful by allowing the use of its port Bandar a 
Abbas for transshipment of wheat to Turkmenistan, Uzbekistan, 
and Tajikistan for onward delivery to Afghanistan. Kyrgyzstan 
has also made staging areas available for humanitarian 
assistance.
    Finally, Uzbekistan has provided staging areas for 
humanitarian and other assistance and they are working on 
opening the Termez Bridge. U.S. forces are inspecting the 
bridge and, if sound, it could be used to deliver much-needed 
humanitarian assistance to the region of Mazar-e Sharif and we 
are optimistic that it will be open very soon.
    Mr. Chairman, each of these states is well aware that it 
has everything to gain from a secure, prosperous, and stable 
nation on its borders.
    In the long run, we expect that the outcome of the Afghan 
political discussions will be a central authority of some sort 
in Kabul with control over specific issues of national concern, 
complemented by a decentralized administrative system which 
delegates some decisionmaking authority and control of 
resources to regional centers. This is likely the only 
politically viable solution in a country marked by regional and 
ethnic tensions, which unfortunately have increased during the 
20-plus years of conflict.
    We plan to continue to provide directly to the Afghan 
people through the U.N. and accredited NGO's, and at some point 
it will be realistic to discuss the possibility of providing 
multilateral assistance to a representative Afghan Government 
and to local governments and councils. This type of economic 
assistance will give local governments and councils a stake in 
the rebuilding and economic wellbeing of the nation as a whole.
    Targeting assistance will also assist in reintegrating 
women into Afghan economic and political life. Under the 
Taliban, women and girls in Afghanistan were the victims of 
serious and systematic abuses. The Taliban's unacceptable 
treatment of women will leave a mark on Afghanistan's long-term 
development. The U.N. reports that female literacy is 
approximately 4 percent versus 30 percent of males. The Taliban 
has also significantly reduced women's access to health care, 
with resultant negative lasting consequences for maternal and 
child health.
    We are pleased that the Bonn talks included Afghan women 
and that the Interim Authority will include several women, 
including a vice chairman who will handle women's affairs and 
the minister of public health. This is an important step for 
Afghan women and one that we strongly support.
    In the past, women were a vital part of Afghan society. 
Having them back playing important roles in Afghanistan's 
public life, in government, schools and hospitals will help to 
rebuild Afghan society.
    Obviously, some of our goals for a stable, secure 
Afghanistan will be reached more quickly than others. In the 
mean time, we also remain focused on the severe humanitarian 
crisis facing us in Afghanistan and we must continue to provide 
the Afghan people with basic necessities. Let me provide you 
with a brief snapshot of where we now stand with regard to 
humanitarian assistance.
    I know you have heard this before, but we believe it bears 
repeating that prior to September 11 the United States was the 
world's single largest donor of assistance to the Afghan 
people, and the complex humanitarian crisis currently gripping 
Afghanistan started several years ago, coincident with the rise 
to power of the Taliban.
    On October 4, President Bush announced that the United 
States would make available an additional $320 million for 
humanitarian programs, underscoring the message that the United 
States would come to the aid of the Afghan people. On November 
20, Secretary Powell and Secretary O'Neill launched the 
international planning effort for the rehabilitation and 
reconstruction of Afghanistan. As the Secretary stated, our 
message to the Afghan people is that we will not leave them in 
the lurch.
    The humanitarian situation remains very serious, though. 
There is still considerable insecurity in many parts of the 
country, which inhibits the ability of the humanitarian 
agencies to do their work. In particular, no food convoys have 
entered Afghanistan through the important Quetta-Kandahar 
corridor for the past 3 weeks and the international relief 
agencies have not had access to some 60,000 internally 
displaced Afghans under Taliban control in Spin Boldak.
    In the north, the critical logistics hub at Mazar-e Sharif 
is not open due to the insecurity in the area. Concerns over 
security have also delayed the opening of the essential land 
supply route from Uzbekistan, which I mentioned earlier, but 
which we do hope will be resolved soon.
    Finally, winter is descending. The U.N. assessment is that 
between 5 and 7.5 million people are extremely vulnerable and 
in need of international assistance. The relief community, led 
by USAID and the World Food Program [WFP], has done an 
outstanding job getting food and other supplies into the 
country under very difficult circumstances. WFP reports that it 
achieved its overall target of 52,000 metric tons of food in 
November and it set the ambitious goal of moving 100,000 tons 
in December. In November UNICEF completed its polio vaccination 
campaign for 5 million children.
    UNHCR has continued to work with Pakistan to allow refugees 
to enter and to be accommodated in new camps where they can 
receive international protection and assistance. The numbers 
arriving in Pakistan have been relatively small, some 135,000 
since September 11, and with the success of the opposition 
forces there are already spontaneous refugee return movements 
occurring, especially from Iran.
    Against this backdrop, there are a vigorous assessment and 
planning actions under way for the rapid expansion of 
humanitarian assistance where and when security permits. The 
U.N. has reestablished its presence in Kabul, Herat, and 
Faizabad and convoys are able to reach those locations. The 
international donor community is reviewing the integrated U.N. 
relief strategy for the winter at a meeting this week in Berlin 
that I mentioned earlier. Donor pledges, some $800 million in 
total, will cover the requirements presented in the U.N. plan.
    In 2 weeks in Brussels, the steering group for the 
reconstruction will meet to set the course and start the 
resource mobilization effort, endeavoring to integrate planning 
for recovery and rehabilitation work with the existing 
humanitarian strategy. This effort will also aim to establish 
the interface between the Afghan Interim Authority and the U.N. 
and international financial institutions.
    The road to peace and prosperity in Afghanistan will be 
long and difficult. We must all work toward this goal, not only 
for Afghanistan but for the region and the rest of the world.
    Thank you for your attention.
    [The prepared statement of Ms. Rocca follows:]

  Prepared Statement of Hon. Christina Rocca, Assistant Secretary for 
                South Asian Affairs, Department of State

    Mr. Chairman, distinguished Members of the Committee, it is my 
privilege to appear before you with Mr. Haass to discuss the political 
situation in Post-Taliban Afghanistan. I will be brief, and restrict my 
remarks to providing an overall perspective on the political situation 
as well as the current state of our provision of humanitarian 
assistance. Mr. Haass will cover reconstruction and security matters.
    Mr. Chairman, as we speak, American troops are in combat on Afghan 
soil and the U.S. is engaged in three closely linked efforts: to 
isolate and destroy UBL's al-Qaeda organization and its affiliates, 
both in Afghanistan and elsewhere; to decapitate the Taliban regime 
that harbored al-Qaeda and other terrorist groups, and to assist the 
people of Afghanistan restore freedom, prosperity and good governance 
to their country.
    The elimination of Bin Laden and his associates from Afghanistan 
will be followed by a longer internationally-supported process that 
aims to rebuild and bring lasting stability to the war-torn country to 
prevent it from being a safehaven for terrorists. Ousting the Taliban 
leadership and helping the Afghan people form a broad-based, 
representative government are high priorities in this process. These 
tasks will not be easy, especially given the ethnic and regional 
divisions within Afghanistan. It is not for us to choose who rules 
Afghanistan, but we will assist those who seek a peaceful nation free 
of terrorism.
    Well before September 11, the United States had been working with 
the United Nations, with a number of other governments, with the Afghan 
factions, and with Afghan groups outside their home country to develop 
a process of national reconciliation through a traditional Afghan Grand 
Council, or Loya Jirga. Together with our partners in the initiative, 
we developed a set of guiding principles for a successor government 
that continue to have meaning:

  <bullet> It should be broad-based and representative of Afghanistan's 
        diverse ethnic and religious groups.
  <bullet> It should preserve the unity and territorial integrity of 
        the country.
  <bullet> It should protect the human rights of all its citizens 
        including women.
  <bullet> It should not pose a threat to any of its neighbors or near 
        neighbors.
  <bullet> It must not harbor international terrorists or export 
        illegal drugs.

    I'm pleased to be able to report that today, Afghanistan's future 
is looking brighter than it has in many years. December 5th marked the 
conclusion of the U.N. talks in Bonn which succeeded in pulling 
together Afghan groups with widely differing views and agendas and 
coming up with a framework for an interim government in Afghanistan, as 
well as a plan for the long term future of that country.

  <bullet> On December 22, the Interim Authority will begin handling 
        the day-to-day conduct of the affairs of state for the next six 
        months. All armed groups shall come under the command and 
        control of the Interim Authority.
  <bullet> The Interim Authority will consist of an Interim 
        Administration presided over by a Chairman and includes five 
        Vice Chairmen and 23 other members, a Special Independent 
        Commission for the Convening of the Emergency Loya Jirga, and a 
        Supreme Court of Afghanistan. Its membership will reflect the 
        ethnic, geographic and religious composition of Afghanistan and 
        women.
  <bullet> The Interim Authority will cooperate with the international 
        community in the fight against terrorism, drugs and organized 
        crime and will maintain peaceful and friendly relations with 
        neighboring countries.
  <bullet> All actions taken by the Interim Authority shall be 
        consistent with the relevant Security Council resolutions, 
        particularly concerning counterterrorism.
  <bullet> An Emergency Loya Jirga will be convened within six months 
        by former ex-King Zahir Shah. The Loya Jirga will decide on a 
        Transitional Authority to lead Afghanistan until election of a 
        fully representative government.
  <bullet> A Constitutional Loya Jirga will convene to adopt a new 
        constitution within eighteen months of the establishment of the 
        Transitional Authority. The international community is 
        reviewing ways to support the Interim Authority and the process 
        leading to establishment of a permanent multi-ethnic, broad-
        based, gender-inclusive government. There are meetings this 
        week in Berlin, separate from the Bonn talks, and later this 
        month in Brussels that will focus attention on this important 
        issue. One of the challenges will be security. While the Afghan 
        delegations in Bonn recognize that the responsibility for 
        providing security and law and order throughout the country 
        resides with the Afghans themselves, they have asked the 
        international community to help establish and train new Afghan 
        security and armed forces.

    Afghanistan's neighbors play a critical role in helping to support 
this process. They are frontline states for terrorism, narcotics and 
refugee problems emanating from Afghanistan. Their role in backing the 
transition will be very important.
    During this time of crisis, we have been most grateful for the 
support we are receiving from the countries in South and Central Asia. 
Many have become key partners and join a wider coalition of nations 
committed to stopping terrorism in its tracks. Pakistan has taken on a 
crucial role in support of our war in Afghanistan. One should not 
underestimate the serious political risks President Musharraf is taking 
to do this. His bold position at such a critical juncture in 
international history will be remembered and recognized for a long time 
to come.
    India's immediate and generous offers of cooperation also have been 
greatly appreciated by this Administration. India has also suffered 
from Taliban-inspired terrorism and we recognize not only its offers of 
support to the coalition, but also their generous plans to provide 
humanitarian assistance to the Afghan people.
    Tajikistan has provided staging areas for humanitarian and other 
operations, which serve as crucial launching points for humanitarian 
assistance deliveries into Afghanistan.
    Turkmenistan has set up a humanitarian depot, and the UN is flying 
in food shipments for further delivery to Afghanistan.
    Iran has been helpful by allowing the use of its port Bandar a 
Abbas for transshipment of wheat to Turkmenistan, Uzbekistan and 
Tajikistan for onward delivery to Afghanistan.
    Kyrgyzstan has also made staging areas available for humanitarian 
assistance. Russia's EMERCOM (emergency relief organization) is 
transporting wheat shipments overland from Kyrgyzstan directly into 
Afghanistan.
    The Uzbeks have provided staging areas for humanitarian and other 
assistance and are working to open the Termez bridge. U.S. forces are 
inspecting the bridge and if sound, it could be used to deliver much-
needed humanitarian assistance to the region of Mazar-e Sharif. We are 
optimistic that the Uzbek government will open the bridge soon.
    Regionally, the U.S. is cooperating with the UNDCP (United Nations 
Drug Control Programme) and Afghanistan's neighbors to build national 
and regional capacities to counter the Afghan drug trade. As much as 
half of the quantity of illicit drugs produced in Afghanistan are 
consumed in Afghanistan and its neighboring states.
    Mr. Chairman, each one of these states is well aware that it has 
everything to gain from a secure, prosperous, and stable nation on its 
borders.
    In the long run, we expect that the outcome of Afghan political 
discussions will be a central authority in Kabul with control over 
specific issues of national concern complemented by a decentralized 
administrative system which delegates some decision-making authority 
and control of resources to regional centers, likely the only 
politically viable solution in a country marked by regional and ethnic 
tensions which unfortunately have increased during twenty plus years of 
conflict. We plan to continue to provide aid directly to the Afghan 
people through the UN and accredited NGOs. At some point soon it will 
be realistic to discuss the possibility of providing multilateral 
assistance to a representative Afghan government and to local 
governments and councils. This type of economic assistance will give 
local governments and councils a stake in the rebuilding and economic 
well-being of the nation as a whole.
    Targeting assistance will also assist in reintegrating women into 
the Afghan economy and political life. Under the Taliban, women and 
girls in Afghanistan were the victims of serious and systemic abuses. 
As the Taliban solidified their political power base, they intensified 
their control of women using the Ministry for the Promotion of Virtue 
and Suppression of Vice (PVSV) to enforce their radical beliefs. Under 
the rule of the Taliban, the humanitarian situation for all Afghan 
people, and particularly the most vulnerable of them--women and 
children--continued to deteriorate.
    Prior to the Taliban, a limited but growing number of Afghan women, 
particularly in urban areas, worked outside the home in nontraditional 
roles. There were female lawyers, government officials and doctors in 
Kabul. Following the Taliban takeover of Kabul in 1996, they began to 
enforce a series of ultra-conservative social strictures, many of which 
had a severe impact upon women and diminished their status in society. 
Taliban rules restricted women's basic rights--freedom of expression, 
movement and participation in society. The impact of Taliban 
restrictions on women affected economic and social conditions, most of 
all in urban areas which had significant numbers of educated and 
professional women. The Taliban also eliminated opportunities for 
girls' education. This practice will leave a mark on Afghanistan's 
long-term development--the U.N. reports that female literacy is 
approximately 4 percent versus 30 percent for males. The Taliban also 
significantly reduced women's access to health care with resultant 
negative lasting consequences for maternal and child health.
    We are pleased that the Bonn talks included Afghan women and that 
the Interim Authority will include several women, including a Vice 
Chairman who will handle women's affairs and a minister of public 
health. This is an important step for Afghan women. In the past, women 
were a vital part of Afghan society; having them back playing important 
roles in Afghanistan's public life, in government, schools and 
hospitals, will help to rebuild Afghan society.
    Obviously, some of our goals for a stable, secure Afghanistan will 
be reached more quickly than others. In the meantime we must also 
remain focused on the severe humanitarian crisis facing us in 
Afghanistan and we must continue to provide the Afghan people with 
basic necessities.
    Let me provide you with a snapshot of where we now stand with 
regard to humanitarian assistance. I know you have heard this before, 
but we believe it bears repeating, that prior to September 11, the 
United States was the world's single largest donor of assistance to the 
Afghan people. And the complex humanitarian crisis currently gripping 
Afghanistan started several years ago, coincident with the rise to 
power of the Taliban.
    On October 4, President Bush announced that the United States would 
make available an additional $320 million for humanitarian programs, 
underscoring the message that the United Sates would come to the aid of 
the Afghan people. On November 20, Secretary Powell and Secretary 
O'Neill launched the international planning effort for the 
rehabilitation and reconstruction of Afghanistan. As the Secretary 
stated, our message to the Afghan people is that we will not leave them 
in the lurch.
    The humanitarian situation remains very serious. There is still 
considerable insecurity in many parts of the country, which inhibits 
the ability of the humanitarian agencies to do their work. In 
particular, no food convoys have entered Afghanistan through the 
important Quetta-Kandahar corridor for the past three weeks, and 
international relief agencies have not had access to some 60,000 
internally displaced Afghans under Taliban control at Spin Boldak. In 
the North, the critical logistics hub at Mazar-e Sharif is not open due 
to insecurity in the area. Concerns over security have also delayed the 
opening of the essential land supply route into Afghanistan from 
Uzbekistan, which would utilize the Friendship Bridge at Termez.
    And winter is descending. The UN assessment is that between 5 and 
7.5 million people are extremely vulnerable and in need of 
international assistance. The relief community, led by USAID and the 
World Food Program, has done an outstanding job getting food and other 
supplies into the country under very difficult circumstances. WFP 
reports that it achieved its overall target of 52,000 metric tons of 
food in November and has set an ambitious goal of moving 100,000 tons 
during December. In November, UNICEF completed its polio vaccination 
campaign for 5 million children. UNHCR has continued to work with 
Pakistan to allow refugees to enter and to be accommodated in new camps 
where they can receive international protection and assistance. The 
numbers arriving in Pakistan have been relatively small--some 135,000 
since September 11. And with the success of the opposition forces there 
are already spontaneous refugee return movements occurring, especially 
from Iran.
    Against this backdrop, there are vigorous assessment and planning 
actions underway for the rapid expansion of humanitarian assistance 
when and where security permits. The UN has reestablished its presence 
in Kabul, Herat, and Faizabad, and convoys are able to reach those 
locations. The international donor community is reviewing the 
integrated UN relief strategy for the winter at a meeting this week in 
Berlin. Donor pledges--some $800 million in total--will cover the 
requirements presented in the UN plan. In two weeks, in Brussels, the 
Steering Group for the reconstruction effort will meet to set the 
course and start the resource mobilization effort, endeavoring to 
integrate planning for recovery and rehabilitation work with the 
existing humanitarian strategy. This effort will also aim to establish 
the interface between the Afghan interim authority and the UN and 
international financial institutions.
    The road to peace and prosperity in Afghanistan will be long and 
difficult. We must all work toward this goal not only for Afghanistan 
but for the region and the rest of the world.
    Thank you.

    The Chairman. Thank you.
    Mr. Ambassador.

STATEMENT OF HON. RICHARD N. HAASS, DIRECTOR OF POLICY PLANNING 
   STAFF AND U.S. COORDINATOR FOR THE FUTURE OF AFGHANISTAN, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Haass. Thank you. Mr. Chairman, I am pleased to 
have this opportunity to testify before the Committee on 
Foreign Relations in my capacity as U.S. Coordinator for the 
Future of Afghanistan. In the interest of time, what I suggest 
is I simply summarize my prepared remarks and we can put the 
longer statement, if you would like, in the record.
    The Chairman. Without objection, it will be placed in the 
record.
    Ambassador Haass. Our aims in Afghanistan are well known. 
We seek an Afghanistan that is free of terrorists, that no 
longer is a source of poppy, and that allows its citizens to 
return home and live normal lives in which opportunity comes to 
replace misery. Today we can all take considerable satisfaction 
in how much progress we have made toward the realization of 
these goals. I say this fully aware of all that remains to be 
done.
    Moreover, it is difficult to exaggerate the difficulties 
still before us. Still, Mr. Chairman, I view the future with 
some confidence. This stems first and foremost from the great 
success of the coalition's military operations.
    The second reason for guarded optimism is the behavior of 
the Afghans themselves. What we have witnessed recently could 
not be more different from what took place when the Mujaheddin 
defeated the Soviets in 1989. Today Northern Alliance soldiers 
are acting with discipline. Reprisals and atrocities appear to 
be notably absent. Moreover, we have seen at Bonn a remarkable 
demonstration of Afghans coming together to forge a common 
political future.
    The third reason for my relatively upbeat assessment today 
is the behavior of Afghanistan's neighbors and others with 
influence. Countries appear to understand that restraint is 
necessary if a stable Afghanistan will materialize. We are 
seeing less of the historic ``great game'' and more cooperation 
for the greater good.
    The fourth and final reason for my optimism today is the 
attitude of the international community. In 1989, in the wake 
of the Soviet military withdrawal, much of the international 
community decided to limit their involvement in Afghanistan out 
of respect for the strong Afghan tradition of independence from 
foreigners. This time around, the help will be there.
    Future success, though, will depend on translating this 
potential situation into actual accomplishments. As you have 
just heard, Assistant Secretary Rocca focused on the political 
and diplomatic and humanitarian questions. What I would like to 
do is turn to questions of reconstruction and security.
    Beginning with reconstruction, the challenge is to move as 
expeditiously as possible along the humanitarian continuum from 
relief and recovery to actual reconstruction projects. Already, 
a number of international meetings have been convened toward 
these ends and a conference at which donors will pledge 
assistance is to gather in Tokyo in January.
    These meetings will take place under the co-chairmanship of 
a steering committee consisting of the United States, Japan, 
the European Union, and Saudi Arabia. The nature and scale of 
the effort will be determined not simply by the generosity of 
the donor countries, but also by Afghanistan's needs and its 
absorptive capacity. The necessary detailed asssessments are 
being conducted right now by the U.N. Development Program, the 
World Bank, and the Asian Development Bank.
    Although the planning for Afghanistan's recovery and 
reconstruction is necessarily in its early stages, a good many 
of the principles which will inform it can already be 
articulated. First, the effort will be comprehensive, ranging 
from so-called quick impact projects to longer term and larger 
undertakings. In this, resettlement of refugees and the 
internally displaced will be an ongoing priority.
    Second, a second priority will be to discourage the 
production of poppy. This will likely require a focus on 
alternative economic development as well as eradication and 
border control.
    Another priority, one already mentioned by my colleague, 
will be improving the situation of and prospects for girls and 
women. To deny them a role, a significant role, in 
Afghanistan's future would be equivalent to drawing a line down 
the middle of the country and simply ignoring all the people on 
one side of that line.
    Recovery and reconstruction must be done with, not to, the 
Afghans. This requires involving women in the planning and 
development of the project, involving the Afghan diaspora, and 
involving elements of civil society who have remained in the 
country.
    Reconstruction needs to be an Afghan mainly, but not an 
Afghan only, endeavor. Afghanistan's neighbors are more likely 
to support and cooperate with international efforts to promote 
Afghanistan's stability if they participate in and benefit from 
the process.
    Last, recovery and reconstruction will require a sustained, 
generous effort by the international community. We are clearly 
looking at a total of many billions of dollars over many years. 
It is both right and necessary that the United States be 
prepared to do its share. The administration looks forward to 
consulting with this committee and with the Congress as our 
planning on the scope and scale of what we do becomes more 
refined.
    Let me turn now to the military and security front. The 
immediate challenge is to continue to prosecute the war 
successfully against al-Qaeda and the Taliban. Again, this is 
something that will be accomplished by the U.S.-led coalition 
together with Afghans themselves.
    Let me turn now more specifically to security arrangements. 
The agreement just signed in Bonn calls for an international 
security force to help Afghans provide near-term security in 
Kabul and the surrounding areas. The signatories to the 
agreement also ask the international community to help train a 
pan-Afghan security force. There are, though, a number of 
questions still to be determined about an international 
security force, including its mandate, its size, its 
capability, its composition, command arrangements, and the 
precise area of deployment. These and related issues are being 
discussed among U.S. officials, the Afghan Interim Authority 
once it is formed, the United Nations, and potential troop 
contributors.
    One thing, though, is critical. Such a force must do 
nothing that would in any way inhibit the coalition from 
carrying out the primary objectives of ridding Afghanistan of 
terror.
    Mr. Chairman, let me end my remarks with just a few 
principles. First, despite the optimism that you have heard, we 
do not harbor unrealistic goals of perfection for Afghanistan. 
But we do believe it is both desirable and necessary to work 
with Afghans and others in the international community to make 
Afghanistan viable.
    Second, the role of the international community is and will 
remain critical, yet it must remain limited. This is not 
Cambodia, it is not East Timor. Afghanistan is not to be a U.N. 
or international trusteeship. Many of the details of the future 
of Afghan society, economy, and its political system must be 
devised and implemented by Afghans themselves. They will have 
the principal and final say about how to blend the traditional 
and the modern, the central and the local, the national and the 
tribal.
    Third, we need to be clear about our time horizons. The 
U.S.-coalition effort will not be ended until its mission is 
complete. Then, however, coalition forces will be prepared to 
depart. This is as it should be. But we should not be thinking 
about exit strategies when it comes to assisting the Afghans 
with their political, economic, and security challenges. An 
engagement strategy is what is needed.
    Fourth, we need to be prepared for tactical setbacks. 
Attacks by individuals or small groups of terrorists or Taliban 
sympathizers could continue for months or even years. Some 
disagreement and even infighting among the Afghans themselves 
is to be expected. Not everyone is going to endorse the 
emerging order. Eradicating drugs will be an ongoing challenge, 
as will persuading Afghans to give up their arms. Yet, these 
and other challenges should not preclude what has the potential 
to be a strategic trajectory of progress.
    Last, it is important we keep in mind just why it is we are 
involved in Afghanistan. We want and need to succeed because we 
do not want to contemplate having again to deal with the 
consequences of a failed pariah country. At the same time, 
history and conscience argue for doing a great deal to give the 
people of Afghanistan a new lease on life. What we have now is 
a historical rarity, a second chance to do right by ourselves 
and by others. American foreign policy at its best combines the 
strategic and the moral. Afghanistan is an opportunity to 
demonstrate just this.
    Thank you and I look forward to your questions and 
comments.
    [The prepared statement of Ambassador Haass follows:]

    Prepared Statement of Amb. Richard N. Haass, Director of Policy 
Planning Staff, Department of State and U.S. Coordinator for the Future 
                             of Afghanistan

    Mr. Chairman: I am pleased to have this opportunity to testify 
before the Committee on Foreign Relations in my capacity as U.S. 
Coordinator for the Future of Afghanistan.
    Our aims in Afghanistan are well known to the American people and 
this Committee. We seek to bring about an Afghanistan that is free of 
terrorists, that no longer is a source of poppy, and that allows its 
citizens--including an estimated five million refugees and an unknown 
number of internally displaced persons--to return to their homes and 
live normal lives in which opportunity comes to replace misery.
    Today, nearly three months after the horrendous attacks of 
September 11, and some two months after coalition military operations 
in Afghanistan commenced, we can all take considerable satisfaction in 
how much progress we have made towards the realization of these goals.
    I say this fully aware of all that remains to be done. Moreover, it 
is difficult to exaggerate the difficulties still before us. 
Afghanistan and its people have experienced more than two decades of 
occupation and war. An entire generation has grown up knowing little 
but violence. Economic mismanagement and drought have added to the 
hardship. As already noted, millions of Afghans are either refugees or 
displaced. Millions of Afghans, including most girls, have been denied 
the chance to go to school. When you add to this the political and 
religious intolerance that was at the core of Taliban rule, you have a 
picture of suffering that is extraordinary.
    Still, I view the future with some confidence. This stems first and 
foremost from the great success of the coalition's military operations. 
The Taliban regime no longer exists; its remnants along with those of 
its al-Qaeda backers are reduced to a last stand in Kandahar and to 
hiding in caves. This military victory is the basis for all else that 
we may try to accomplish in Afghanistan.
    A second reason for guarded optimism is the behavior of the Afghans 
themselves. What we have witnessed recently could not be more different 
from what took place when the Mujahadeen defeated the Soviets in 1989. 
Then, civil war and reprisals were the norm; the ultimate result was 
the Taliban. Today, Northern Alliance soldiers are acting with 
discipline; reprisals and atrocities appear to be notably absent. 
Moreover, we have seen at Bonn a remarkable demonstration of Afghans of 
all stripes--insiders and exiles, northerners and southerners, Pashtuns 
and Tajiks and Hazaras and Uzbeks, men and women--coming together to 
forge a common political future. There is no better proof than the 
``Agreement on Provisional Arrangements in Afghanistan pending the 
Establishment of Permanent Government Institutions'' just reached in 
Bonn.
    A third reason for my relatively upbeat assessment is the behavior 
of Afghanistan's neighbors and others with influence. Again, the 
contrast with the past is telling. One reason for Afghanistan's trials 
and turmoil during the last decade was the competition between and 
among outsiders for influence on the inside. This time, countries 
appear to understand that restraint is necessary if a stable 
Afghanistan--one that denies sanctuary to terrorists, one that doesn't 
export drugs, one that can take back refugees, one willing to live in 
peace with its neighbors--will materialize. This, too, was demonstrated 
at Bonn. We are seeing less of the historic ``great game'' and more 
cooperation for the greater good.
    A fourth and final reason for my optimism today is the attitude of 
the international community. In 1989, in the wake of the Soviet 
military withdrawal, much of the international community, including 
ourselves, decided to limit their involvement in Afghanistan. The 
reasons were not arbitrary; to the contrary, one motivation was to 
respect the strong Afghan tradition of independence from foreigners. 
Yet Afghanistan clearly needed help to deal with its political, 
economic and security-military challenges. This time around, the help 
will be there.
    Future success, though, will depend on translating this potential 
into accomplishments. This will require continued, sustained effort in 
three areas: the political/diplomatic, the humanitarian/economic, and 
the military/security.
                     the political/diplomatic front
    The U.S. Government has for some time sought to promote a viable, 
broad-based, and representative Afghan political alternative to the 
Taliban. We knew that helping to create such an alternative was both 
desirable--it would help persuade Afghans to shift their allegiances 
away from the Taliban--and necessary, as the world needed an Afghan 
partner to work with on matters ranging from relief and recovery to 
reconstruction and security.
    Towards this end, we have been active diplomatically. Much of this 
has been done in collaboration with and support of the United Nations. 
U.S. officials (including Ambassador James Dobbins, who led our 
delegation in Bonn) have promoted our aims in Afghanistan at meetings 
of the 6 plus 2, the Geneva initiative, in multilateral fora, and in 
countless bilateral meetings with Afghan parties, other governments, 
and representatives of international organizations. Diplomacy has made 
a difference.
    Much of this effort culminated over the past ten days in Bonn. The 
results of the Bonn meeting of the representatives of what were the 
four principal Afghan opposition groups are impressive by any 
yardstick. A broad based, representative government is in sight. 
Assisted by the able chairmanship of Lakhdar Brahimi, the Special 
Representative of the UN Secretary General for Afghanistan, the 
delegates agreed to a political road map charting Afghanistan's 
political course for the next two to three years and beyond. At the 
start of this road map is the creation of an Interim Authority, a 30 
person institution (to be chaired by Hamid Karzai) that will on 
December 22 come to be the sovereign representative of Afghanistan. 
This body will provide a partner for the entire international community 
as it endeavors to enhance Afghanistan's security and provide 
humanitarian and economic assistance for the country's recovery and 
rehabilitation. What will follow within six months will be the 
convening (by former King Zahir Shah) of an emergency ``Loya Jirga,'' a 
large council of many of Afghanistan's key citizens. This gathering 
will lead in turn to a transitional administration and a second Loya 
Jirga to decide constitutional matters. At the end of the process a 
legitimate Afghan government is to emerge through processes designed to 
give the Afghan people a real voice and vote.
                  relief, recovery, and reconstruction
    As just noted, prospects for political progress are predicated in 
significant part on an improving humanitarian and economic context. 
This has been the case for some time. Indeed, the international 
community, with the United States in the lead, has provided generous 
amounts of relief to the people of Afghanistan over the past several 
years. The liberation of the country's north, the area of most severe 
humanitarian crisis, has eased the plight of the people, and further 
improvements in the security situation there will have dramatic impact. 
Although we still have a great deal to accomplish, it is now possible 
to envision an end to the era when relief dominated efforts by the 
international community toward Afghanistan.
    By definition, relief is just that--a stop gap. The challenge is to 
move as expeditiously as possible along the humanitarian continuum to 
recovery and reconstruction projects. Already, a number of 
international meetings have been convened toward these ends, including 
a meeting of senior officials convened in Washington on November 20 by 
the United States and Japan. A second meeting of senior officials is 
scheduled for mid-December in Brussels, and a conference at which 
donors will pledge assistance is to gather in Tokyo in January. These 
meetings will take place under the co-chairmanship of a steering group 
consisting of the United States, Japan, the European Union, and Saudi 
Arabia.
    The nature and scale of the effort will be determined not just by 
the generosity of the donor countries but also by Afghanistan's needs 
and absorptive capacity. The necessary detailed assessments are being 
conducted by the United Nations Development Program, the World Bank, 
and the Asian Development Bank.
    Although the planning for Afghanistan's recovery and reconstruction 
is necessarily in its early stages, a good many of the principles which 
will inform it can already be anticipated.

  <bullet> The effort will be comprehensive, ranging from so-called 
        quick impact projects (demining, local road rehabilitation, 
        provision of seeds, renovation of water supplies, reopening 
        schools, etc.) to longer term and larger undertakings in the 
        areas of agriculture, household and light industry, 
        infrastructure modernization, education, and health. 
        Resettlement of refugees and the internally displaced will be 
        an ongoing priority.
  <bullet> Another priority will be to discourage the production of 
        poppy. This will likely require focus on alternative economic 
        development as well as eradication and border controls.
  <bullet> Also a priority will be improving the situation of and 
        prospects for girls and women. Not only do girls and women 
        constitute an estimated 55-60% of the country's population, but 
        they were denied educational and employment opportunity in the 
        Taliban era. To deny them a significant role in Afghanistan's 
        future would be equivalent to drawing a line down the middle of 
        the country and ignoring all those on one side of the line.
  <bullet> Recovery and reconstruction must be done with and not to 
        Afghans. This requires involving not only women in the planning 
        and implementation of these efforts but involving also the 
        Afghan diaspora in addition to elements of civil society who 
        have remained in the country.
  <bullet> Reconstruction will be an Afghan mainly but not an Afghan 
        only endeavor. Afghanistan is more likely to improve if the 
        immediate region also fares well economically. In addition, 
        Afghanistan's neighbors are more likely to support and 
        cooperate with international efforts to promote Afghanistan's 
        stability if they participate in and benefit from the process.
  <bullet> Last, recovery and reconstruction will require a sustained, 
        generous effort by the international community. We are clearly 
        looking at a total of many billions of dollars over many years. 
        It is both right and necessary that the United States be 
        prepared to do its share. The Administration looks forward to 
        consulting with this Committee and the Congress as our planning 
        on the scope and scale of what we will do becomes more refined.
                    the military and security front
    The immediate military challenge is to continue to prosecute the 
war against al-Qaeda and the Taliban. This entails bringing about the 
liberation of Kandahar, the last remaining Taliban stronghold, and then 
rooting out al-Qaeda and Taliban forces wherever they may be hiding. 
Again, this will be something accomplished by the U.S.-led coalition in 
conjunction with Afghans.
    Security arrangements also need to be made and implemented for 
liberated areas, especially Kabul. The agreement signed in Bonn calls 
for an international security force to help Afghans provide near-term 
security in Kabul and the surrounding areas. The signatories to the 
agreement have also asked the international community to help train a 
pan-Afghan security force. The United States military involvement in 
Afghanistan will continue to be focused on our primary objective of 
destroying al-Qaeda and routing out the Taliban.
    There are a number of questions still to be determined about an 
international security force, including its mandate; size; capability; 
composition; command arrangements; and precise area of deployment. 
These and related issues will be discussed among U.S. officials, the 
Afghan Interim Administration, the UN, and troop contributors. One 
thing is critical, however, it must do nothing that would in any way 
inhibit the coalition from carrying out the primary objective of 
ridding Afghanistan of terrorism.
                           guiding principles
    Mr. Chairman, as already stated, the United States and the 
international community face considerable challenges before we can be 
sure we have made Afghanistan a country free of terrorists and drugs. 
It will take time and resources to help Afghans create a society in 
which the citizens of Afghanistan can return home to a life of 
security, economic opportunity, and greater freedom. We do not harbor 
unrealistic goals of perfection, but we do believe it is both desirable 
and necessary to work with Afghans and others in the international 
community to make Afghanistan a viable society.
    The role of the international community is and will remain 
critical. Yet it must remain limited. This is not East Timor. 
Afghanistan is not to be a UN or international trusteeship. Indeed, 
many of the details of a future Afghan society, economy, and political 
system must be devised and implemented by Afghans themselves. They will 
have the principal and final say about how to blend the traditional and 
the modern, the central and the local, the national and the tribal.
    We need to be clear about our time horizons. The U.S.-led coalition 
effort will not be ended until its mission is completed. Then, however, 
coalition forces will be prepared to depart. This is as it should be. 
But we should not be thinking about exit strategies when it comes to 
assisting the Afghans with their political, economic, and security 
challenges. An engagement strategy is what is needed.
    We need to be prepared for tactical setbacks. Progress will not 
always be linear. Attacks by individuals or small groups of terrorists 
or Taliban sympathizers could continue for months or years to come. 
Some disagreement and even infighting among the Afghans is to be 
expected; not everyone is likely to endorse the emerging order. 
Eradicating drugs will be an ongoing challenge, as will persuading 
Afghans to give up their arms. Yet these and other tactical challenges 
should not preclude what should be a strategic trajectory of progress.
    Last, we must keep in mind why we are involved in Afghanistan. We 
want and need to succeed, in part because we do not want to contemplate 
having again to deal with the consequences of a failed, pariah 
Afghanistan. At the same time, history and conscience argue for doing a 
great deal to give the people of Afghanistan a new lease on life.
    What we now have is an historical rarity--a second chance--to do 
right by ourselves and others. American foreign policy at its best 
combines the strategic and the moral. Afghanistan is a chance to 
demonstrate just this.
    Thank you. I look forward to your comments and questions.

    The Chairman. Thank you very much.
    I have been told, ladies and gentlemen, the votes have been 
postponed until 11:40 and it may be only one vote then, so we 
may be able to move this. In order to accommodate that, why do 
we not have the first round 5 minutes, and let me begin with 
you, Mr. Ambassador.
    The Secretary General asked to meet with Senator Helms and 
myself, Senator Lott, and some others in my office last week to 
discuss, among other things, the security side of this 
arrangement. Let me say as a preface, I am fully aware, and I 
think my colleague will sustain that I stated flatly to the 
Secretary General that any security force that was put in place 
would not, could not, and would not be allowed to in any way 
interfere with our actions relative to prosecuting our efforts 
against al-Qaeda and Mr. bin Laden, no matter what it took.
    I indicated to him, I think Senator Helms will recall, that 
I could not speak for everyone, I know everyone in the room 
agreed, but I thought I spoke for a vast majority of Democrats 
as well as Republicans in that regard.
    But, having said that, it seems as though you have a bit of 
a dilemma here. The pressure--``pressure,'' wrong word. The 
concern from the Defense Department and other places, 
legitimately, of having a multilateral force in place that we 
could end up stumbling over or having to coordinate with 
relative to al-Qaeda and bin Laden is a reasonable concern. But 
it seems--and this is an observation, may not be accurate--it 
seems to have slowed up what--let me put it another way.
    If we already had bin Laden in custody and al-Qaeda had 
been eliminated, I would be dumbfounded if we would not have by 
now already had a security force in place. So it seems to me 
that the security force being put in place, which is obviously 
necessary--in today's New York Times in section B, there is a 
schematic map of the area still controlled by or impacted on by 
the Taliban.
    Obviously, Mazar is an area where--I did not think the 
reason why we were not using the Friendship Bridge was the lack 
of its capacity to sustain vehicles crossing it, although that 
is a concern, but the lack of the capacity to sustain the 
safety of those folks once they cross the bridge.
    So there is this competing dilemma here. When we spoke at 
some length with Kofi Annan, he indicated that there were three 
alternatives that he had discussed. One was a blue-helmeted 
operation; the second was a total indigenous force; and the 
third was a coalition of the willing led by the United States, 
not having anything to do with blue helmets.
    He thought that the second of the two--I do not think I am 
putting words in his mouth; I think that what he said--the 
second of the two is the only real alternative. When we asked 
him about Turkey and Bangladesh and other Islamic nations, he 
said that his clear view was that they were willing, and 
smaller countries--and Turkey has a serious military 
capability--and smaller countries were willing to participate 
as long as, he said, some of the big guys were there, primarily 
us, but also the Brits, the French, the Germans, and they have 
offered.
    So that is a long preface to a relatively short question. 
How do you--talk to us about this timing element, if that is 
any part of getting security on the ground to get the aid in 
place, because specifically the discussion about why Pashtun 
leaders were not willing to go to Kabul, in addition to not 
wanting to walk into the circumstance where they would have 
their fate settled politically because it would not be done at 
Bonn, there was a security concern as well.
    So talk to me about this relationship and what kind of 
security force you are envisioning or thinking about. My time 
is up.
    Ambassador Haass. Thank you, Mr. Chairman. We have been 
weighing a lot of these same tradeoffs ourselves, as you might 
expect, over the past few months. One of the key things in the 
timing, in addition to obviously having the military situation 
reach a point where you could even contemplate a role for an 
international security force, was also having an Interim 
Authority to work with. We needed a representative, legitimate 
Afghan partner to discuss this, and that will be in place, we 
expect, by December 22. Indeed, we needed something like Bonn 
to actually produce someone to talk to in the intervening 
period.
    The general options are as you suggest. A blue-helmeted 
force seems out of the question for the foreseeable future. 
Blue-helmeted forces are there for peacekeeping. At the moment 
there is no peace to keep.
    The Chairman. We are talking about a force for enforcement, 
are we not, as well as peacekeeping?
    Ambassador Haass. I think we are talking about something 
more than a traditional peacekeeping force here. I think we 
have to be realistic. But again, how much more and where I 
think are important questions. I think there is a spectrum 
here, that we have to be careful about where it is we feel 
comfortable with ourselves going and where we want to put 
certain limits.
    But I think again everyone understands that this is not 
appropriate for a traditional U.N. blue-helmeted force, which 
tends to work in a consensual environment, usually has very 
little capability, and so forth. Everyone understands that is 
not called for.
    An indigenous force, a so-called pan-Afghan force, is 
envisioned by the Bonn agreement. It is everyone's goal 
ultimately. The problem is we just cannot get from here to 
there as quickly as we would like to. You simply do not have 
the political basis and the coalition and the experience.
    So what we therefore need is a gap-filler essentially 
between where we are now and when a pan-Afghan force could 
assume the role of security in Afghanistan. I think there you 
are looking at some sort of an international security force, as 
it is called in the Bonn agreement. It is endorsed by the 
United Nations, but it does not report to the United Nations, 
an important distinction.
    We obviously have to work out questions of command 
arrangements, coming back to the first principle that nothing 
it does could in any way hobble or interfere with the 
operations of the coalition. We have got to still look at 
questions of its geographic coverage, whether it is simply 
limited to Kabul or it goes beyond. There is obviously 
questions of composition. I take your point that it will need 
some capable questions.
    But these are exactly the questions we are wrestling with. 
These are not unilateral for us to decide. It is something that 
we are working out with potential troop contributors, with the 
United Nations, and with the Afghans themselves, because if you 
read the Bonn agreement carefully, if this force came into 
Kabul it would be preceded by the withdrawal from Kabul of all 
Afghan forces. So this is very much a friendly, if you will, 
transition from the existing situation to something else.
    The Chairman. I hope we do not discuss it too much and I 
hope we do not rely too much on their input and I hope we exert 
our influence very firmly and soon, because our experience in 
similar circumstances has been when we do not it does not work 
well.
    But I thank you very much. I yield to the chairman.
    Senator Helms. Thank you, Mr. Chairman.
    Madam Secretary, do I not recognize you? Have I not seen 
you on the Senate floor a time or two with a fellow named 
Brownback?
    Ms. Rocca. I believe that is correct, Senator.
    Senator Helms. We miss you.
    Ms. Rocca. Thank you.
    Senator Helms. I hope you are enjoying your work.
    Last week the United States Ambassador to Pakistan toured a 
Pakistani textile factory and while there she said--and let me 
quote her: ``The patriotic thing to do if you are an American 
is to buy Pakistani products, because the stronger the partner 
we have here in Pakistan is a stronger partner against terror 
in Afghanistan.'' I have got the article here where she said 
that.
    Now, perhaps she is unaware that there are two sides to 
that story. Like old Shoeless Joe used to say, ``it ain't 
necessarily so.'' The United States textile and apparel 
industry last year lost more than 60,000 jobs, including, if 
you will forgive me, 20,000 in North Carolina. These are people 
whose children serve in our police forces and our military and 
they pay taxes and so forth, but they are not qualified to take 
the jobs that are made possible by Research Triangle Park 
further east in North Carolina, and they are out of work 
because, simply said, there is nothing else for them to do.
    I hope that the statement by Ms. Chamberlain does not 
represent the view of this administration and I am going to 
make inquiry of the President about it.
    Do you have any view on that?
    Ms. Rocca. Senator, I believe Ambassador Chamberlain's 
comments were made in the context of our efforts to show 
support to General Musharraf and to recognize the sacrifices 
that Pakistan has been enduring as a result of the war. This is 
a war which we would have much greater difficulty winning 
without Musharraf's strong and bold support and it is in that 
context that she made those comments.
    That said, obviously we appreciate the situation in the 
U.S. textile industry and we are committed to working with the 
Congress to ensure that our support for Pakistan is done in a 
manner which will minimize the impact on the textile and 
apparel industry.
    The Chairman. I think she just forgot you are still here.
    Senator Helms. Well, I hear that and I do not mean to 
offend you, but that is the same song and dance I hear from the 
administration all the time. They do not give--and not only 
this administration; prior administrations.
    These people do not have anything to do, and they have been 
hard-working people whose jobs were ripped away from them by 
the close of textile mills.
    Now, let me see. I want to ask you something, sir. Without 
second-guessing the parties on their choices for the interim 
government of Afghanistan--you cannot hear me?
    Ambassador Haass. I am sorry?
    Senator Helms. I am not going to second-guess anybody 
regarding the choices for the interim government of Afghanistan 
and I do not think you are, either. But I do wonder whether any 
of the individuals involved have the nationwide stature inside 
Afghanistan to keep the government together. I want to know how 
you assess the prospects for stability there.
    Ambassador Haass. You are asking, Senator, one of the most 
basic questions and it is something I come out I suppose with 
guarded optimism. Depending on the day, I either emphasize the 
word ``guarded'' or I emphasize the word ``optimism.'' I am not 
going to stand up here or sit here and be a Pollyanna and say 
it is going to be smooth sailing. It is not.
    But the reasons that I do have some optimism is that I do 
see the Afghans themselves showing that they have learned from 
their mistakes of the past. The fact that something like Bonn 
could happen is in itself an accomplishment. The fact that we 
have not seen the sort of reprisals in cities that are 
liberated that we saw in the early nineties I think shows some 
progress. The fact that the neighboring countries and others 
who have significant influence essentially worked behind the 
scenes at Bonn to make it happen at least suggests that they 
understand that if they try to get maximal influence for 
themselves everyone else is going to do the same and no one is 
going to benefit.
    The fact that the international community is willing to put 
lots of resources this time around and not walk away, as you 
yourself referred to in your statement. So again, I am not 
going to predict an easy road. I am not even going to predict 
success. But I do think there are some reasons to think that 
there is probably the best chance in modern history to set 
Afghanistan on a relatively stable and successful path that you 
or I have ever seen. That, as a policymaker, it gives us 
something to work with and it obviously gives us, I think, a 
challenge that is not so ambitious that it is simply 
unrealistic.
    Senator Helms. Very quickly, you heard the chairman discuss 
Kofi Annan's coming to his office and we talked. Do you believe 
that a U.N. force is going to be necessary there?
    Ambassador Haass. Sir, I do not believe a U.N. force, if 
you mean a force that reports to the United Nations, is 
desirable. I do think, though, we will need an international 
security force.
    Senator Helms. Comprised of whom?
    Ambassador Haass. Pardon me?
    Senator Helms. Comprised of whom?
    Ambassador Haass. I think we need some capable countries, 
some serious countries. We are looking at them. It could be 
several countries in Europe. Members of NATO have expressed an 
interest or a willingness in participating or even leading such 
a force. Several Arab or Islamic countries could also be a part 
of such a force.
    It would have to be done in a way, again, that no way would 
interfere with what General Franks and the coalition are doing. 
It could possibly even report to the coalition so you did not 
have a separate line of command arrangements, something you 
said. I think any such force has to go in with its eyes wide 
open. Afghanistan is probably going to suffer from a 
significant degree of lawlessness, as well as pockets of 
foreign Taliban and al-Qaeda resistance, for some time to come. 
So any such force needs to have the capability so it can more 
than hold its own in that kind of a stressful environment.
    Senator Helms. We better plan on what you are saying.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Secretary, you should be optimistic and 
the reason to be optimistic is look at Afghanistan on the 5th 
of September and look at it on the 5th of December. That is 
enough of a reason. You should take some pride as well in the 
work you have done.
    Our subcommittee chairman for this area, Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman. I thank both of 
you. We much appreciate your work.
    I would ask unanimous consent that my full statement be 
included in the record.
    The Chairman. Without objection.
    Senator Wellstone. And I am not going to read it.
    Let me just try to get both questions out to both of you 
and then each of you respond. I want to go back to Senator 
Biden's map. The headline also here in the New York Times is 
``Refugees Are Dying as Aid Goes Unused.'' There are six 
million Afghans that are at risk in the north because the 
humanitarian assistance is not reaching them.
    I wanted to, I guess, be critical in the question that I am 
going to put to you. It seems to me that we can dither around 
with a lot more sort of meetings and discussions and we can at 
least target the supply routes which are actually critical to 
delivering the humanitarian aid. We are not talking about blue 
helmet. I think Senator Biden is saying the same thing. It can 
be a multinational force with the blessing of the U.N.
    I guess between the banditry and the snow--actually, some 
of us have raised this question going back to October, and I 
think for months actually we have been focused on this. So I 
guess I want to--and I know that the administration to a 
certain extent has been pushing back on this idea. But I just 
want to say to you, I do not think we have much more time, and 
in fact I do not think time is neutral at all and if we do not 
get this done then it is going to be too late.
    So I want to try and maybe have more discussion with you on 
this, because it is not as if this has not been the question we 
have been raising over and over again.
    Then the second point that I want to mention is this whole 
question of reconstruction. We were talking earlier, Mr. 
Chairman, both to Richard and Christina and I was saying that I 
am glad that we have an opportunity to talk about political and 
economic reconstruction. But it has been a decade of neglect, 
and I think the United States in partnership with the 
international community has got to be willing to make a multi-
year, multi-national, multi-billion dollar effort to rebuild 
Afghanistan.
    I think Senator Biden mentioned this. We have promised that 
we would lead the way. The United Nations--according to the 
United Nations, the bill for reconstruction will be in excess 
of $10 billion, and other estimates say $12 to $15 billion. So 
far we have pledged $320 million and that is for humanitarian 
relief, and we have made no specific commitment so far for 
reconstruction and recovery.
    I would be interested in, how much money do you see the 
United States contributing to the world effort for Afghan 
reconstruction? Those are the two questions.
    Ambassador Haass. Senator, on the question of security, if 
you read the Bonn agreement, the annex that is devoted to the 
international security force, I think the first sentence is 
relevant here. Let me just quote it: ``The participants in the 
U.N. talks on Afghanistan recognize that the responsibility for 
providing security and law and order throughout the country 
resides with the Afghans themselves.'' That is key.
    If there is an international security force, again I think 
you are looking at it either possibly just in Kabul, 
conceivably it might go to one or two other population centers. 
But we are not talking about occupying Afghanistan. We have got 
a country here the size of Texas and that sort of occupation is 
a recipe for trouble. It would not do the international 
security force or the Afghans any good.
    The bulk of the security has to come from essentially 
Afghan forces reporting to the central government as part of 
this new national army that is going to be built. As Christina 
said in her testimony, this is one of the ways in which there 
is going to have to be a balance between what is done at the 
capital and what is done in a decentralized fashion around the 
rest of the country.
    But there is no way that an international security force 
can provide point defense for every aid convoy or every 
international worker in every square inch of Afghan territory. 
That would simply spread it too thin. That is where training 
the Afghans and hopefully getting them up to a level of 
professional competence has a real potential to make a 
difference. That is also where consent in Afghanistan is going 
to make a difference. We are hoping that the Afghan forces are 
not challenged to a degree where lawlessness becomes the rule 
rather than the exception.
    Just very quickly on the reconstruction area, the numbers 
are necessarily vague about the scale of the effort. People are 
throwing around a lot of numbers. I would not put a whole lot 
of stock in them yet. Until you do a serious needs assessment, 
until you really look at the question of sequencing, of 
absorptive capacity and so forth, I do not think the numbers 
are terribly meaningful and specific, though you are 
essentially right, we are talking about a large amount of money 
over multiple years.
    The United States will do its share. What exactly that 
share is is obviously going to depend upon the whole, and we 
are just not at the point yet where we are prepared to say this 
many dollars in this package of legislation. But it is 
something that we are beginning to refine and it is something 
we will do with the Congress as we get farther along.
    Senator Wellstone. In 20 seconds: I did not say that we 
could put together a force that would provide security for 
every single truck on the ground. I said earlier that we can 
target the supply routes that were critical. Frankly, I do not 
think right now we can rely on Northern Alliance or Afghan 
forces to do this, and we do not have a lot of time.
    So I cannot quite understand your pushing back on the idea 
of some kind of international force coming in and targeting the 
actual supply routes which we know are critical. Otherwise, you 
have got around six million people--and I will go back to the 
headline today, which I do not think is melodramatic: 
``Refugees Dying As Aid Goes Unused.'' That is really what I am 
talking about. I do not think we have met that challenge. I do 
not know why.
    Ms. Rocca. Senator, just very briefly, I will just add to 
what my colleague here said that we are of, taking into account 
what Ambassador Haass said about not being able to provide the 
security in the manner in which one would--which would make the 
assistance, the humanitarian assistance, efficient, we are very 
much aware of the problem. We are working very closely with the 
WFP to find ways. There are people on the ground working for 
WFP who have experience in these matters and who are working 
very hard to find ways around the problems, and we are working 
closely with them.
    [The prepared statement of Senator Wellstone follows:]

              Prepared Statement of Senator Paul Wellstone

    I want to thank all of you for participating in today's hearing as 
I know many of you have been involved in a week of difficult but 
extraordinarily important negotiations in Bonn, Germany. I am grateful 
to you for being here today to share your perspective on that process 
and what lies ahead for Afghanistan.
    The agreement reached in Bonn yesterday offers the best hope for 25 
million Afghans who have suffered enough. They deserve a rest from 
endless suffering and war. They also deserve generous reconstruction 
assistance from the international community and a decent government at 
home.
    The causes of the Afghan tragedy include nearly all the horrors 
that stalk failed states: meddling and invasion by neighboring states, 
internecine warfare leading to a takeover by brutal fanatics, the 
oppression for the majority of the population--women--and finally the 
Taliban's fateful decision to host international terrorists.
    The cures for Afghanistan's agony are less obvious, but one is 
clear. The rival political and ethnic groups must take the historic 
opportunity that emerged yesterday in Bonn and make a genuine 
commitment to the peaceful sharing of power and to establishing a 
government broad and effective enough to meet the basic needs of the 
people. The same small-minded factionalism that originally left the 
country vulnerable to backward mullahs, greedy warlords, and predatory 
neighbors continues to pose a threat to the country now.
    Two others things are clear: The United States and its coalition 
partners must dither no longer and send in a multinational force to 
ensure humanitarian access in Afghanistan. Six million Afghans are at 
risk in the north because humanitarian assistance is not reaching them.
    From the beginning of this conflict, I have said that the military 
effort will not be successful unless the humanitarian effort restores 
order and meets basic survival needs. This effort cannot wait for all 
hostilities to cease. Nor can the millions of Afghans wait, whose very 
survival are at risk.
    Taliban units may be largely defeated and dispersed, but there is 
no area in Afghanistan that is entirely secure. The main supply routes 
for humanitarian assistance are blocked by local banditry or the onset 
of winter. Consequently, we need an immediate deployment of a 
multinational force with a mandate to increase humanitarian access to 
vulnerable Afghans.
    Second, we must move quickly and decisively on a long-term 
commitment to the reconstruction of Afghanistan. The people of 
Afghanistan have endured 23 years of war and misery, and the conflict 
has threatened international stability, and placed enormous burdens on 
their limited means. The Bush Administration has said that it will not 
let Afghanistan descend into chaos. But talk is not enough--it must act 
with the commitment of significant resources. We must show Afghans that 
our commitments are not hollow. We must show them that we are not going 
to give up on them this time, and turn our backs on them as we did 
before. We must show genuine solidarity and real generosity now.
    It is time to reverse more than a decade of neglect. The United 
States, in partnership with the international community must be willing 
to make a multi-year, multi-national and multi-billion dollar effort to 
rebuild Afghanistan.
    Our reconstruction effort must focus on education, particularly 
girls' education, which has proven to give the greatest return to each 
assistance dollar. Creation of secular schools will also break the 
stranglehold of extremism, and allow both boys and girls to make 
positive contributions to the development of their society. It must 
also focus on rebuilding basic infrastructure--repairing shattered 
bridges and roads, removing land mines, reconstructing irrigation 
systems and drilling wells. We must also rebuild the shattered health 
infrastructure by establishing basic hospitals and village clinics.
    The Afghans have been through enough hell. They deserve to live in 
a society where they can feed their children, live in safety and 
participate fully in their country's development regardless of gender, 
religious belief or ethnicity.
    Thank you.

    The Chairman. As they say in this business, I associate 
myself with the remarks of my friend from Wisconsin, and I 
suspect Chancellor Schroeder would, too.
    Senator Wellstone. Minnesota.
    The Chairman. Minnesota. I beg your pardon.
    Senator Wellstone. This has been going on for 11 years.
    The Chairman. I am the Senator from Maryland. I yield to 
the Senator from Wisconsin--no, to Senator Lugar from Indiana.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Ambassador Haass, some historians who have tried to 
describe governance in Afghanistan have suggested that at best 
there was only a small central government, but largely a 
government of tribes or entities that loosely got together in 
various ways. I mention that simply because clearly the work 
that you and others are doing is remarkable in the Bonn 
conference, in thinking through some central government and 
some way it might relate to each of the various forces that 
came together in Bonn and some that did not.
    I am just wondering, as you take a look in the intermediate 
term, quite apart from the long term, essentially Afghanistan's 
fate will probably be more of a function of its proximity to 
Russia and Pakistan and Iran, maybe to some extent Tajikistan, 
Uzbekistan, in other words their neighbors. All of these states 
share a desire for a friendly, stable, or at least non-hostile 
situation there, and have been prepared in the past to take 
steps to try to ensure that that was the case through injection 
of their own influence.
    Now, it is being suggested, not necessarily by yourself or 
the administration, that the United States has a role here 
militarily, and likewise we certainly are working very hard in 
a humanitarian way, but we affirm that we are not nation-
builders. We do not want Americans on the ground there in any 
sense of permanence as a security force or a governance force.
    You are testifying that other nations who are volunteering 
for this process want to know that large countries--like the 
United States--are going to be there. But I just think that at 
some point the critical issue will be what role does the United 
States really see for the situation, because otherwise despite 
our best protestations now, we will drift away in terms of our 
influence on the situation, and others who are the neighbors 
will in fact take control.
    This may not lead to a situation that is as catastrophic as 
the Taliban, but we could meet 10 years from now and say we 
made a bad mistake. We won the war, but we left, not as 
abruptly perhaps as before, but we were out the door even as 
the war was ending.
    I just wonder the extent to which you and your colleagues 
are trying to think this through as to how the United States 
has any influence in addition to the neighbors. The Russians 
already by coming back in have indicated they certainly 
understand their situation, and I wonder whether we understand 
ours.
    Ambassador Haass. I think we do. There is a dilemma here. 
It is the typical Goldilocks case. We want to do enough, but 
not too much. We want to do enough to basically realize our 
goals in Afghanistan, to put it crudely, so we do not have to 
do what we have just done again in several years. On the other 
hand, we do not want to get involved in the sort of intrusive 
nation-building which would be resented by Afghans or resisted 
by them ultimately, and we should not get involved in 
activities to the exclusion of other members of the 
international community.
    For example, the reconstruction effort; it should not be a 
mostly U.S. effort. There is every good reason in the world why 
the bulk of the resources ought to come from other countries. 
The United States has clearly carried out the bulk of the 
coalition effort. In that phase, the United States has done the 
lion's share of the world's work.
    I would see us staying involved politically and 
diplomatically, supporting the efforts of Lochdar Brahimi, the 
Secretary General's Special Representative, doing what we can 
do in various fora, working with the six immediate neighbors of 
Afghanistan, working with the Russians, the Indians, and others 
with influence to try to create a context in which we can 
hopefully mute the internal competition and jockeying.
    On the question of a security force, again I think the bulk 
of the contributors will come from capable countries on the 
outside. Again, several European countries have indicated their 
willingness to do that. The United States will consider taking 
on a modest role to help enable such a force, to facilitate it.
    Senator Lugar. Let me just interrupt for a second before my 
time is up. Will such indirect leadership work, as opposed to 
our simply saying, these things do not work, without us taking 
control and managing it?
    Ambassador Haass. Maybe it is a question of language, but 
we have been accused of many things here and indirectness is 
not normally one of them. On the other hand, though, we do not 
want to make this an American enterprise, because it is not. It 
is first of all for the Afghans themselves. Second of all, the 
U.N. has a key role, as you know. Third, the six neighbors have 
a key role, as do some other countries which have historical 
involvement there.
    The United States is doing an enormous lot. As Christina 
mentioned, we have taken the lead on the humanitarian side. We 
have obviously done the lead on the coalition effort, military 
effort against al-Qaeda and against the Taliban. We are one of 
the co-chairs of the reconstruction effort and will contribute 
to that generously, I would expect. We were one of the prime 
movers behind the success at Bonn and we are going to stay 
involved diplomatically. And we will consider what, if any, 
role we could usefully take within the context of an 
international security force, keeping in mind again that the 
bulk of the security effort will have to be Afghan and that 
this force is essentially a gap-filler.
    So I would say that is quite a sizable role, Senator. But 
at the risk of sounding contradictory, it is sizable, yet still 
limited. I think that is the constant challenge here, to avoid 
doing too little and too much.
    Senator Lugar. Thank you.
    The Chairman. Thank you very much.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Thank you for coming this morning and for sharing your 
thoughts with us. Thank you, also, for allowing us to pursue 
some of these issues. I want to pick up from where Senator 
Lugar left off regarding the role of nations now engaged in 
Afghanistan. If I recall, in both of your testimonies this 
morning, you referenced Iran. Senator Lugar talked about the 
roles of Russia and Iran, and other neighbors.
    I would like to get your sense in a little more detail, 
specifically, on what Iran has been doing, or not doing, to 
assist the United States and our coalition.
    Ambassador Haass. Senator Hagel, Iran, as you know, is one 
of the six bordering countries on Afghanistan. It has played a 
large role in several areas of this, of this question. One is 
diplomatic. It is a member of the so-called Six Plus Two Group, 
which is the United States, Russia, and the six immediate 
neighbors. We had several meetings in New York of this group 
quite recently.
    Iran was one of the countries that sent observers to Bonn, 
was one of the countries that worked behind the scene. We have 
also exchanged messages through the Swiss with the Iranians 
about steps that they could take.
    I would simply say that by and large the Iranian role 
diplomatically has been quite constructive, that they have a 
lot of influence with the Northern Alliance or United Front and 
to the best of our knowledge they have used that influence 
constructively in trying to bring about the sort of compromise 
that we saw at Bonn.
    Second, as Christina referenced, the Iranians have helped 
in the humanitarian area. They are host to an awful lot of 
refugees. They have facilitated humanitarian assistance. As I 
think Secretary of State Powell has mentioned, the Iranians 
have suggested their willingness to help if, for example, U.S. 
pilots ever got into trouble over their territory.
    So I am not saying we see everything eye to eye here. On 
the other hand, I do think the pattern of Iranian behavior here 
I think deserves to be labeled constructive.
    Senator Hagel. Thank you.
    Madam Secretary.
    Ms. Rocca. He covered it comprehensively. I do not really 
have much to add other than the fact that they have been 
playing a very positive role in this endeavor.
    Senator Hagel. Thank you.
    I also would appreciate your take on the Russians. The 
Russians now have a military presence in Afghanistan. From what 
I understand, it came somewhat as a surprise to us. I am also 
interested in your take on the Russians' diplomatic efforts in 
Iran. Mr. Ambassador?
    Ambassador Haass. Senator, I just spent a few days in 
Moscow this past week consulting with the Russians about their 
role in Afghanistan. I would say diplomatically that for the 
most part we are pulling in the same direction. It was not 
always agreement on some of the tactics, about the role, say, 
of some of the individuals or groups. But again, I think the 
bottom line was good and the goals that we set out, that 
Assistant Secretary Rocca articulated, about what it is we all 
want in Afghanistan, those are shared.
    They too, from what we can see, have used their influence 
behind the scenes both at Bonn and elsewhere to help. So, while 
we have not always agreed 100 percent on every tactic, again I 
think it is impressive. It is yet another reminder that the 
cold war is quite distant, that the United States and Russia 
have found ways to cooperate when their strategic interests are 
essentially aligned.
    I think the Russians also want to demonstrate through their 
modest troop presence in Kabul that they still have a special 
role there, that they still have some influence there. But I 
would not see it as much more than that. I do not see it as a 
threat or something to the natural evolution of a more positive 
security situation there.
    Senator Hagel. Do you believe the appearance of Russian 
troops in Afghanistan was just a breakdown in communication 
between our two countries? Or was it intended to be a surprise, 
or how do you read it?
    Ambassador Haass. Senator, I just do not know all the 
details, the tick-tock of exactly what happened just before the 
Russian troops arrived. If you would like, I can look into that 
and get back to you on that.
    [The following information was subsequently supplied:]

    CENTCOM personnel, who were coordinating air drops within 
Afghanistan, confirmed that they had last minute notification, 
which they passed on to CENTCOM headquarters in Tampa, that the 
Russian planes were inbound to Bagram, Afghanistan. Acting 
Russian MFA Director for Third Asia Gleb Ivanschentsev 
confirmed to Embassy Moscow officials on November 27, 2001 that 
twelve IL-76 aircraft landed in Bagram, on November 26, 
carrying a load of 200 tons of humanitarian supplies and 
equipment. Ivanschentsev said that a few dozen Russian troops 
wre ingaged in the humanitarian flights, providing logistical 
support to EMERCOM (the Russian emergency management 
organizations, similar to FEMA) personnel in Russian diplomatic 
and humanitarian efforts, including the establishment of a 
hospital and humanitarian ``base'' in Kabul.

    Senator Hagel. Thank you.
    Madam Secretary.
    Ms. Rocca. It is our understanding that it was just sort of 
a disconnect, which they quickly reassured us that the contents 
of those planes were humanitarian assistance and we got back on 
track afterwards.
    Senator Hagel. Thank you, Mr. Chairman.
    The Chairman. If I may follow that, when I was out of the 
room taking a call it may have been answered. If it has--but 
there were Russian press reports indicating it was about 
Chechnyan rebels, that the reason they had forces in there was 
to be able to determine whether among the al-Qaeda-related and 
Taliban-related forces there were Chechnyans who were on their 
list, and that is why they were in place.
    Ambassador Haass. Well, based on what we know, there are 
clearly Chechens in Afghanistan and there are al-Qaeda in 
Chechnya. Whether that was specifically part of the Russian 
function, I have seen no evidence linking that, because, as 
Assistant Secretary Rocca said, the rationale that we have seen 
was totally related to the humanitarian.
    The Chairman. I know that was the rationale offered. I just 
wondered if you had any evidence to respond.
    Ambassador Haass. I have seen no behavior that would 
suggest, for example, in order to have determined, for example, 
that there were Chechens there, it would have required a 
different sort of behavior than we have seen.
    The Chairman. I am not questioning it. This was a Russian 
press report, a Russian press report.
    Senator Chafee.
    Senator Chafee. Thank you very much, Mr. Chairman.
    I was amused when we sat down and somebody made a comment 
about reconstruction. The Senator, my seatmate here, said: 
``Reconstruction is a bad word in Virginia.'' This is 140 years 
after the Civil War. So the goal of having the Northern 
Alliance and ex-Taliban living in peace shows the formidable 
task in front of us.
    I do have a question following up on Senator Hagel and 
Senator Lugar's line of questioning. Assistant Secretary Rocca, 
you gave us a geographic tour of the area, going through 
Pakistan, Tajikistan, Turkmenistan, Iran, Kyrgyzstan, 
Uzbekistan. Although the People's Republic of China does have 
only a remote, not a very lengthy border with Afghanistan, what 
is it's role? Have the Chinese been involved? Were they at 
Bonn? Or is the U.S.-Sino relationship still influenced by the 
incident with our airplane, and there is not really any 
involvement from the People's Republic of China?
    Ms. Rocca. No, Senator. I actually met with the Chinese 
Foreign Minister, Vice Foreign Minister, just last week and we 
had a long discussion about Afghanistan. Primarily their view 
is the same as ours. They have the same goals that we do. They 
also want to see a broad-based, broadly representative 
government, and a country that is at peace and that no longer 
exports drugs or terrorism.
    The narcotics aspect and the terrorist aspects are 
obviously very high on their agenda, as it is on all the 
surrounding countries. They have a large humanitarian program 
which they have been actually implementing. They have been 
sending things through Pakistan into northern Afghanistan. So 
they are active in providing humanitarian assistance, and they 
are supportive overall of what we are trying to achieve and 
what the international community is trying to achieve there.
    They were not in Bonn as far as I know.
    Senator Chafee. What do you make of them not being in Bonn?
    Ms. Rocca. The representatives in Bonn were essentially, 
the foreign representatives, were the surrounding countries, 
the Six Plus Two countries, as well as the countries that had 
played host to various exile groups of Afghans.
    Senator Chafee. They are one of the six.
    Ambassador Haass. I would not make much of it. The Chinese 
played an active role in the Six Plus Two. They have also got a 
lot of influence through the U.N. Security Council. They 
obviously also consult particularly closely with the 
Pakistanis, who were in Bonn. So I would not make anything of 
it.
    Senator Chafee. I'm wondering what they are thinking in 
Beijing, what are they thinking about this whole situation?
    Ambassador Haass. I think for the Chinese the interests are 
not simply about Afghanistan, I agree entirely with what 
Assistant Secretary Rocca said, but it is also about what this 
means for the U.S.-Chinese relationship. We have had 
consultations with the Foreign Minister and others since 
September 11 and the President was in Shanghai subsequent to 
September 11, and essentially looking at ways in which 
counterterrorism cooperation could potentially increase.
    I think the Chinese are essentially, like a lot of other 
countries, trying to figure out what this means, not simply 
what we are doing in Afghanistan, but what we might do beyond 
that, and what that might mean from their national interests as 
they see them. I think that, if you will, along with the narrow 
consideration of Afghanistan--I think they are really looking 
at where American foreign policy is going and again what 
consequences it might have for China.
    Ms. Rocca. If I could just add to that to bring in also, 
they also have a terrorism concern, an indigenous terrorism 
concern, some of which emanated from Afghanistan. So they have 
a very clear interest in essentially meeting the same--
supporting the goals that we are all trying to achieve there.
    Senator Wellstone [presiding]. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    I first want to commend you all. In particular, I want to 
commend President Bush, the secretariats of Defense and 
secretariats of State for everything you have done in this 
effort. The military has done a great job. The help from the 
Uzbeks, also enlightened Pakistani leaders, all have helped our 
just cause.
    This war is not over, but in the midst of it I also want to 
commend the American people for their generosity and caring in 
trying to get humanitarian aid into an area where obviously 
outsiders have not been welcome at all. So while there may be 
some difficulties, which we all hate waste, we are trying to 
help people, and I think people ought to look at our heart and 
our will and our desire to help out in humanitarian aid. I know 
that you and all of us want that to be done. But I want to 
commend the intent and also recognize how difficult that is in 
this particular situation while a war is still going on.
    This war on terrorism is far from over. Indeed, the war is 
going very well in Afghanistan, but Osama bin Laden has not 
been captured in any way whatsoever. Al-Qaeda still exists. The 
leaders of the Taliban, those repressive leaders, are still 
involved.
    Now, beside all that, here is our goals. I was looking--I 
always like to have guiding principles or goals, and what we 
want to do is to help the many diverse people in Afghanistan 
constitute a representative confederation or federation. We 
have to advocate certain principles or precepts that are the 
foundation of it and really for successful self-government.
    When you look at--you have to ensure certain rights and a 
structure. I was just thinking, with all this tragedy there is 
a brighter future. You both talked about it. This is actually 
positive in the long run for Afghanistan. The idea of setting 
up new governments is something we did years ago, and once 
again we need modern day James Madisons or George Masons 
involved in constituting these governments.
    But note all the new governments that have been set up in 
say the last 10 years: Poland; the Czech Republic, they split 
with the Slovaks amicably; Hungary, Romania, Moldova, Bulgaria, 
Croatia, Slovenia, the Baltics, Armenia, Georgia, the Ukraine, 
and Belarus.
    Now we have a new opportunity for a better and brighter 
future. I think that the key is to allow all the people from 
all the regions, the diverse groups, to have their own 
representatives.
    In Secretary Rocca's statement on page 2, talking about the 
key, I agree with you completely. No. 1, it should be broad-
based and representative of Afghans' diverse ethnic and 
religious groups. It should preserve the unity of territorial 
integrity of the country and should protect the human rights of 
all its citizens, including women.
    I agree with what you said, Ambassador Haass, and with your 
sentiments that the Afghan people should be controlling their 
own destiny. Those are basic principles for us, but need to be 
applied to this situation, the diverse situation in 
Afghanistan.
    Now, with all of these, all the groups and factions 
involved in the agreements in Bonn, (a), how do you believe or 
where do you see the sincerity and the commitment to these sort 
of principles out of these various factions? And (b), what 
commitments to human rights practices is this interim 
government taking? And what role will women--this will be a key 
thing. This is not just ethnic; it is also gender equality.
    I think it is good that there are two women given positions 
in this interim cabinet. But beyond that, where do you see the 
commitment and sincerity of this interim government for these 
principles, as well as in particular the rights and 
opportunities for women, because I think in the long run that 
is going to be key. Beyond the security will also be the 
education of a population so that it can seize the 
opportunities of the world and actually live a more prosperous 
life with better human rights.
    Ms. Rocca. Senator, these are very good questions and with 
Afghanistan's past the answers are not necessarily clear if one 
is going to take the past as a guide. However, as Ambassador 
Haass said in his statement as well, they are getting a second 
chance. What we took out of, what we read into the spirit of 
the Bonn agreement is that there is a real yearning for peace 
and stability and rehabilitation among the Afghan people, and 
that the representatives in Bonn were representing that 
feeling.
    The Bonn agreement has a few things in it which I would 
just like to read to you because they are quite remarkable, and 
the fact that these people, that this group is signing onto 
this I think is a very good sign: ``The Interim Authority 
shall, with the assistance of the United Nations, establish an 
independent human rights commission, whose responsibilities 
will include human rights monitoring, investigation of 
violations of human rights, and development of domestic human 
rights institutions. The Interim Authority may, with the 
assistance of the United Nations, also establish any other 
commissions to review matters not covered in this agreement 
along these lines.
    ``The members of the Interim Authority shall abide by a 
code of conduct elaborated in accordance with international 
standards. Failure by a member of the Interim Authority to 
abide by the provisions of the code of conduct shall lead to 
his or her suspension from that body. The decision to suspend a 
member shall be taken by two-thirds majority of the membership 
of the Interim Authority on the proposal of its chairman or any 
of its vice chairmen.''
    These are remarkable statements and, as I said, it 
indicates where they want to go and what the intent is. We are 
optimistic that they will take advantage of this second chance. 
They are certainly speaking along--the Foreign Minister, so-
called, of the Northern Alliance has said on numerous occasions 
and was actually saying at the beginning of the Bonn 
conference: We are getting another opportunity; this is our 
chance not to fail; we failed in the past. That spirit is 
pervasive right now.
    On the issue of women's rights, there were two women at the 
conference. One of the ministries is going to be run by a 
woman. There is actually going to be--instead of the Ministry 
of Vice and Virtue, which was engaged in repressing women, we 
have got a ministry for women that is going to be run by a 
woman. I think that also indicates commitment, as does the fact 
that one of the vice chairmen of the Interim Authority will be 
a woman.
    These are all very good signs. We intend to work with the 
U.N. to keep them to these commitments and to remind the 
international community and remind the Afghans that this is 
what they signed up to and this is extremely important for the 
future and the rebuilding of Afghanistan.
    There is also talk--and I will let you, Richard, expand on 
this----
    Senator Helms. I am sorry, we are going to have to close 
this down because we are way overtime on the vote over on the 
floor. Let me thank both of you for your testimony today.
    Senator Wellstone. Mr. Chairman, if you want, Senator Biden 
said that he would come right back. I can stay while we start 
the next witness, just to keep it going.
    Senator Helms. Well, the vote is almost over now.
    Senator Wellstone. Then there will be a brief break and 
then we will hear from the second panel.
    Senator Helms. So what you are asking is to be kept open?
    Senator Wellstone. We can start----
    Senator Helms. Is that satisfactory to you two?
    Senator Wellstone. Well, let us just take a break. Let us 
just go vote.
    Ambassador Haass. Do you want us to remain or do you want 
to go to your second panel?
    Senator Wellstone. Second panel. Is that all right with 
you, second panel?
    Senator Helms. I do not understand the answer. Will your 
schedule permit you to stay further? Now, we have a second 
panel who have been waiting.
    Ambassador Haass. We are at your mercy, sir.
    Senator Helms. I think I shall let the chairman decide 
this. I know what I would do if I were chairman still, but we 
got jeopardized several weeks ago and I am no longer the 
chairman.
    We will stand in recess and Senator Biden I am sure will be 
back in a few minutes.
    [Recess from 11:59 a.m. to 12:03 p.m.]
    The Chairman. The hearing will come to order. I apologize 
for the confusion. I just wanted to ask one more question of 
the witnesses. I will not hold them long and I will not hold 
the second panel, on which at least one member has a time 
constraint, on the second panel.
    The one question I have is, there have been reports--and 
for either one of you to answer. There have been newspaper 
reports and other reports that Chancellor Schroeder, as we all 
know, took a political chance and survived a vote of no 
confidence in terms of his commitment to participation in our 
effort in Afghanistan, including the use of German forces, 
which was unprecedented since World War Two.
    There are further reports that he and-or his government was 
somewhat miffed, once that decision had been made, essentially 
being told: No, not now; maybe later we can use your help in 
terms of forces. I know for a fact our French friends, which is 
not unusual, were a little miffed about our unwillingness to 
have them participate with their ground forces.
    Can you tell me a little bit about both those issues? Is 
there contemplation on our part to take advantage of the German 
offer, and what is the status of the French commitment with 
regard to committing forces on the ground for a security force?
    Ambassador Haass. Senator Biden, I just returned yesterday 
from India, but en route there my first stop was in Berlin, 
where I had consultations with the German Government last week 
about this and other questions relating to Afghanistan. You are 
right, there has been a lot of debate. I think there are people 
within the German Government who look favorably on the 
possibility of their contributing forces.
    At least to me, I did not pick up any sense that they were 
miffed. When the question was up, I simply said our thinking 
has not reached the point of determining exactly what we think 
is going to be necessary in terms of size, composition, 
mandate, and the like. We first needed an Afghan partner to 
work with.
    But we have made it clear, in answer to your second 
question as well, to lots of countries that we welcome our 
allies----
    The Chairman. You say we need an Afghan partner to work 
with. We went in without an Afghan partner. We agreed to 
provide humanitarian aid. Had things not progressed as they 
have, we would still be trying to get humanitarian aid into 
areas notwithstanding the fact that we had no Afghan partner of 
any consequence to do it, would we not?
    Ambassador Haass. It is a different situation, though. The 
situation on the ground has obviously progressed far. But more 
important, politically we do not have the luxury now of simply 
thinking about prosecuting the war, though that is our 
priority. We also are looking toward the future, and we want to 
set up a pattern of relationship with the Afghans where, among 
other things, an international security force is not resisted, 
it is not seen as a hostile force, where they cooperate with us 
on facilitating humanitarian supplies reaching people, where 
the reconstruction effort does not waste money and essentially 
lubricates our efforts to keep national consensus and keep a 
modicum of stability.
    So I think at this point it is important to work with the 
Afghans because we do not want, now that they themselves see 
that they have largely, with the coalition's help, rid 
themselves of the Taliban and the large foreign dimension of 
the Taliban, we do not want Afghan nationalism in any way to 
literally or figuratively train its guns on the United States 
or any other member of the international community.
    Just very quickly to answer, complete the answer on the 
other part of it, we have made it clear all along that we look 
forward to military contributions to the coalition as this 
process evolves. The countries you are talking about--Germany, 
France, Britain, Turkey--these are exactly the kinds of 
countries who would clearly have the capacity and may well have 
the willingness to contribute capable forces to an 
international security force.
    Again, I have not detected that people are miffed for the 
most part. It is just simply that we could not get ahead of 
ourselves with that force, given the situation on the ground 
and the evolution of the political situation.
    The Chairman. As I said, I do not want my last question to 
be read as my being critical of your effort, because I think 
you have done a good job. I hope, from my perspective, if we 
reach the point, which you have been able to avoid, that we 
reached 7 days ago and you have overcome, where the former 
President sitting in Kabul nixed a security force being put in 
place, that we would tell him: You have no choice, you have no 
choice. Because if we decide to do this by consensus we will 
not only be, in my humble opinion--I realize the Balkans are 
different than Afghanistan, but I would suggest that there is a 
bit of a lesson to be learned between the differences how we 
moved in Bosnia and how we moved in Kosovo, and I hope--at any 
rate.
    Ambassador Haass. Could I say one thing on that, Senator? I 
do not think anyone what watched what the U.S. team at Bonn led 
by Jim Dobbins did would describe it as passive.
    The Chairman. No, it was not there. No, no, no, no, no. 
That is why I said you succeeded, except the guys there do not 
have the rifles. The guys there have the political capability 
so far. Now, they may very well--this may all translate. I am 
not suggesting that--I said at the outset, I think you did a 
first-rate job.
    All I am saying to you, if you get to the point, if it gets 
to the point where that political consensus that was arrived at 
in Bonn falls apart because the guys with the rifles back on 
the ground conclude they do not like the deal, they should 
understand they are at the other end of our bullets next time. 
This should not be something done, in my humble opinion, other 
than firmly. And you have been very firm. I just, I had a 
moment of brief concern when the response by the former 
President about the presence of the security force was mixed 
and, although I had hope and some expectation you would be able 
to resolve that in Bonn, I was--I am just saying, had you not 
been able to resolve it and it had to be resolved, there is no 
possibility in my view--unsolicited advice and take it for what 
it is worth, which is not much. There is no possibility of our 
long-term goals being able to prevail in Afghanistan without 
there being security forces on the ground in control of access 
for aid as well as access to localities. That is the only point 
I wish to make.
    Ambassador Haass. I agree. But it is our goal that the bulk 
of that security function as soon as possible be carried out by 
Afghans themselves.
    The Chairman. That is where you and I have--that is where I 
think you are being mildly Pollyannaish and I am not as 
optimistic as you. I hope we both agree--but I do not disagree 
with the premise that the day comes that it is an Afghan force, 
just like I look forward to that unified military in Bosnia 
that I am still waiting for, I will herald the moment and the 
day.
    At any rate, I thank you both very much. Christine, if you 
want to add anything, but the question has been answered. I 
thank you very much.
    Ambassador Haass. Thank you, sir.
    The Chairman. Mr. Thomas Gouttierre, the dean of 
International Studies and director of the Center for 
Afghanistan Studies, University of Nebraska in Omaha, Nebraska; 
as well as Ms. Gailani, an advisor to the National Islamic 
Front of Afghanistan, from Providence, Rhode Island. I welcome 
you both here.
    I find I have to tell the Senator from Nebraska I am 
increasingly relying upon Nebraska, the University of Nebraska, 
these days. As the chairman of the Criminal Law Subcommittee 
yesterday, I had a professor, a colleague of yours from the 
University of Nebraska, who did a first-rate study and the only 
intensive study, 5-year study on the efficacy of the crime bill 
and the COPS bill, and was thorough, and now here I am seeking 
Nebraska's input again.
    Mr. Gouttierre. This is good.
    The Chairman. This is good for me. I do not know about 
Nebraska, but it is good for me.
    I welcome you both. I am told one of you has a time 
constraint. I think you, sir?

   STATEMENT OF THOMAS E. GOUTTIERRE, DEAN OF INTERNATIONAL 
  STUDIES AND DIRECTOR OF THE CENTER FOR AFGHANISTAN STUDIES, 
               UNIVERSITY OF NEBRASKA, OMAHA, NE

    Mr. Gouttierre. It is I.
    The Chairman. Dean, well, why do you not, with the 
permission of Ms. Gailani, proceed first.
    Mr. Gouttierre. Thank you for your comments about Nebraska. 
I know you are talking about my colleague at the University of 
Nebraska at Omaha, Sam Walker. He is a very outstanding fellow.
    I am pleased to be back. I have rarely had a Senate hearing 
like this, and I have been attending these and giving 
presentations on Afghanistan since the early seventies, where 
there have been so many people in agreement on so many things. 
That is very heartening. I do not say this in any way lightly 
because I think it really means very good things for both the 
United States and Afghanistan.
    The Chairman. There is an old expression attributed to 
Samuel Johnson: ``There is nothing like a hanging to focus 
one's attention.''
    Mr. Gouttierre. That is true, exactly, and that is what 
happened.
    I am just going to therefore make some comments which I 
think will be in many ways a reiteration of some of the 
statements made by your first panel and some of the comments 
that were picked up by Members of the Senate as well. First of 
all, let me just reiterate that, and I agree with what you have 
said, we need to be as forthright and forthcoming with the 
reconstruction campaign as we have been with prosecuting the 
military campaign of this war on terrorism. The United States 
has to be the leader and it must be perceived as so.
    In response to one comment talking about the possibility of 
being intrusive, I think that Afghans are not so concerned 
about the United States being intrusive at this stage. Let me 
be very clear in saying that. Afghans are more concerned about 
us meeting their expectations, and we have not in the past 
decade.
    The Afghans do see us as their friends and supporters. 
Afghans are not xenophobic. I think this is one of the myths 
that exists about Afghans. Afghans just do not like to have 
people invading their territory, raping their women, or 
stealing their property. If you are good friends with them-- 
you cannot find more loyal and devoted friends, people who are 
very excellent in being able to deal on an equal level with 
other people.
    So I feel this is not only Afghanistan's window of 
opportunity; this is also the United States' window of 
opportunity. We have a real shot at advancing our whole 
position, our U.S. foreign policy interests in the region, in 
the Muslim world, and around the world. I certainly do not 
think this will be as expensive as what we will need to spend 
if we do try to do it on the cheap and fail. We have had 
experiences in Afghanistan in doing that.
    We need to recognize that this is a sound investment in our 
own future. I agree with Senator Wellstone in his comments on 
that. Our share needs to be the share of one setting the 
appropriate and effective example.
    There is a historical precedent with the United States 
working like this in Afghanistan, dealing with Afghans in this 
type of development. I think that is something that should give 
us again a lot of encouragement. When I lived there in the 
sixties and seventies, the United States was very, very much 
involved with other nations in helping the Afghans develop. The 
development that occurred then went on after the last Loya 
Jirga. You know, we are talking now about convening another 
jirga. That one constructed the liberal, as it is called, or 
the progressive constitution of Afghanistan which went into 
effect in 1964.
    During that period there was a lot of development going on 
in Afghanistan. It was still a poor country, but women were 
essentially not wearing veils, girls were going to school like 
boys, there were women who were ministers of cabinet and 
members of parliament, and Afghanistan essentially was trying 
to move itself from being an absolute monarchy to a 
constitutional parliamentary monarchy.
    So Afghans harken back to those things. That is why the 
former King, Zahir Shah, remains such a symbol of hope for most 
Afghans. It is very important that we remember that there is 
this historical precedent. We are not dealing with a situation 
where we have to begin from nowhere.
    There is the problem, of course, that so much of 
Afghanistan has been destroyed. In the sixties and seventies we 
were building upon development efforts that had been begun in 
the forties and fifties, as well. Now Afghanistan is going to 
be much more difficult to rebuild, to develop, and to 
reconstruct.
    There is one thing that we need to remember about 
insulating Afghans from the meddling of their neighbors. They 
all have their own agendas. It is important, as Ambassador 
Haass mentioned, that we work with them, the so-called Group of 
Six Plus Two, because, if we have them working with us, it is 
probably more advantageous than having them working against us.
    I was the U.S. member of the United Nations Special Mission 
to Afghanistan (UNSMA) in 1996 and 1997 when that same Six Plus 
Two was really a formula for disaster. So I think it really 
requires a very, very active role by the United States, kind of 
serving as a safeguard, because each of these six has its own 
agenda and they have been famous and successful in meddling----
    The Chairman. They are not the same agenda.
    Mr. Gouttierre. Not the same agenda, and it is not the 
agenda of the Afghans.
    I think one of the things that is very heartening from the 
Bonn meetings is that without these other six meddling, in a 
sense, the Afghans, some of whom had difficulty getting 
together in the past because of the meddling, were able to do 
things that nobody really expected to happen quite so quickly. 
We do not need any more Wahabi or Daeobandi fifth column 
movements or others like that in Afghanistan.
    Our role is going to be very, very important in that 
regard, and I appreciate what you just said in the very last 
comments you had because I think that was suggestive of that 
particular role. So Six Plus Two perhaps has a role, but it 
needs to be very, very clearly different from when Pakistan 
could sabotage it, as it did, and when others could follow 
thereafter in doing the same thing. We need again to try to 
insulate the Afghans from the meddling that has often proceeded 
from that.
    Concerning the security forces, one of the things we keep 
hearing is that they need to be solely Muslim. Any Afghan with 
whom I have talked said that should not be the case. They 
really seek the best possible peacekeeping forces, and I agree 
with Richard Haass. I also agree with you that it will probably 
require perhaps an introduction maybe of monitors, if not 
necessarily helmets, and that they might lend credibility to 
any internal forces. I think it would be advisable if it could 
be a combination of some international and some internal, 
although I do not know exactly how that could be or should be 
composed at this stage.
    Now, I would like to just say a few things about what type 
of reconstruction. There needs to be an emphasis on community-
based programs of basic health, basic education, basic 
infrastructure reconstruction, basic manpower training for men 
and women, and also literacy. I envision places where Afghans 
can gather together in a kind of one-stop shop in their 
villages and regions to engage, while they may be going after 
some of their other needs, in some of the constructive citizen 
education efforts that the Afghans are going to need in setting 
up dialogs.
    Remember, it has been 28 years since the Afghan's have had 
a representative form of government, 28 years since the King 
was overthrown by his cousin in a revenge coup. So it is going 
to be difficult. They have had 28 years of regional power lords 
trying to exercise their control. So we need to help them find 
ways to have a dialog for reconstruction, and I think this 
might all be done through these community-based efforts. If you 
see pictures of Afghanistan, a country which I remember as 
very, very scenic, very beautiful, it is seen as a country 
today that looks very destitute because it has been so 
rubblized, and also has experienced 4 years of drought in 
addition to 23 years straight of warfare.
    Finally, I would like to address how much will it cost. 
Whether it is $10 billion or $20 billion, I think it will be a 
bargain for us. It will be a bargain for us in terms of our 
interests in that part of the world, it will be a bargain for 
us in terms of our interests in the Muslim world, and it will 
be a bargain around the whole world as the world takes a look 
to see how we do sustain our promises and commitments. I think 
we are very much on display in this particular thing.
    So if I may, I beg your forgiveness here. I want to add one 
thing that I think is a very appropriate element to closing 
this out. Afghans are always referred to as warriors. They are 
successful warriors, but they like to think of themselves as 
poet-warriors. My favorite poem from one of the great Persian 
poets, whose name----
    The Chairman. You are talking about the Irish or the 
Afghans?
    Mr. Gouttierre. No, this is not the Irish, but they are 
alike. They are alike in the love of poetic expression.
    This is from the Gulistan of Shaykh Muslihudin Sadi. I am 
going to read it in Persian, in honor of my Afghan friends, 
many of whom have died, or who are now struggling, and then I 
will translate it. This will display how Afghans treasure 
friends and what we mean to them as their friends. It is short. 
It goes:
    [Reads in Persian.]
    The Chairman. You do not have to translate. I got it.
    Mr. Gouttierre. Oh, good. I know you guys from Wisconsin do 
very well on that.
    The Chairman. We do, we do.
    Mr. Gouttierre. I followed your earlier exchange.
    The Chairman. It is the cheese.
    Mr. Gouttierre. Yes, right. Boy, you are full of that 
today.
    The Chairman. You are about to be cutoff if you make 
another comment like that.
    Mr. Gouttierre. ``One day at bath, a piece of perfumed clay 
was passed to me from the hand of a friend. I asked the clay: 
Are you musk or ambergris, because your delightful scent 
intoxicates me? It answered: I am but a worthless piece of clay 
that has sat for a period with a rose. The perfection of that 
companion left its traces on me, who remains that same piece of 
earth that I was.''
    This is how Afghans express how important to them 
friendship is and what friendship can do to them. They see us 
right now as the rose. I think we can be also the clay and see 
them as the rose. Let us hope that we truly do what we have 
promised to do, so that we can see Afghanistan become what I 
think we all want it to become in our interest as well as in 
their own.
    I thank you very much for having me here before your 
committee.
    The Chairman. Well, if you do not mind, since he has to 
leave, could we postpone, and I am going to yield to my friend 
from Nebraska to be able to question the dean.
    Did you go to the University of Nebraska?
    Senator Hagel. Yes.
    Mr. Gouttierre. The campus in Omaha, where I work.
    The Chairman. Now is your chance. Now is your chance to get 
back.
    Senator Wellstone. Would the Senator from Nebraska give me 
just 10 seconds, since I did not realize we had the votes and, 
I want to apologize to both of you, I have to leave in a couple 
minutes, and I will read what you said and get back to you. I 
apologize.
    Senator Hagel. Mr. Chairman, thanks for pointing out my 
academic career, not one to be emulated.
    The Chairman. Well, it was by me, though. It was by me.
    Mr. Gouttierre. Chuck, we are proud of you.
    Senator Hagel. Tom, thank you very much. I have always 
believed in your judgment and solid understanding of life and 
your insightful appreciation for what we are doing here, and I 
am very proud of you and all at the University of Nebraska at 
Omaha who have contributed to a better understanding of this 
issue all over this country.
    This is a complicated issue, as you know, and your 
colleague Ambassador Tomsen, who you know, Mr. Chairman, who 
came to the University of Nebraska at Omaha from his last post 
as our Ambassador to Armenia, distinguished foreign service 
career, and he along with Mr. Gouttierre has really developed a 
clear perspective on this issue.
    I might add as well, you have not hesitated to point out 
where in your opinion we have drifted a bit as we have worked 
our way along through this treacherous path. One that I want to 
get to here in a question, you may have seen a story in the 
Omaha World Herald today which quotes you and Ambassador Tomsen 
in AP reports and stories, of your strong support of the result 
so far of the Bonn meetings and the outcome last night in what 
now is in place and what will play out here for at least the 
next few months.
    If I have missed some of this in the first part of your 
testimony, Tom, because of the vote, I apologize. But I would 
be interested in getting maybe a little deeper sense from you 
of how you think the process plays out from here. I know you 
are very supportive of the individuals, Mr. Karzai who has been 
selected to lead this effort. Anything that you would like to 
embroider around on this specific area would be helpful.
    Thank you.
    Mr. Gouttierre. Thank you, Chuck, Senator Hagel. I 
appreciate that. You are right, I am enthusiastic. I am 
enthusiastic because I know so many of these people, know them 
to be very quality people. One of them, for example, the 
proposed Minister of Finance, has U.S. graduate degrees in 
finance and economics, and has had experience working at the 
World Bank. He and his sister helped to teach me Persian when I 
was a Peace Corps trainee back in the early 1960's.
    Hamid Karzai, the Prime Minister, or Chairman of the 
interim government, is an individual I have known for 15 years. 
He is a very sophisticated, moderate nationalist and an 
individual who I know is dedicated to bringing all the parts of 
Afghanistan together. He does not see himself just as a 
regionalist. That bodes well for Afghanistan.
    I could go down the list. Some of them are connected even 
now with the University of Nebraska at Omaha and some have 
worked with us on USAID, State Department-funded projects 
during the war with the Soviet Union. So I have a lot of 
respect for them, because most of them are professionals, they 
are technocrats, in addition to their political connections.
    I am particularly pleased with the nomination and the 
appointment of Sima Samar, the woman who is the Minister of 
Womens Affairs, the Deputy Chairman. I have known her for many 
years. She is an exceedingly courageous woman who has worked 
against incredible odds to hold education programs for Afghan 
women in the country as well as in refugee camps. We have been 
proud from the University of Nebraska at Omaha to work with 
her.
    I could go on and I will not do that. What I will do is say 
this. I appreciate what you said, Senator, about the role that 
the United States might take in a situation like you were 
describing with Ustad Rabbani, who has been the President in 
the past. I have known him since 1969. His interests are more 
regional and religious than national. What Ambassador Haass 
indicated Ambassador Dobbins and others were doing in Bonn as 
well as Afghan members of his own group, cautioning him to step 
back, is very important.
    Again, let me reiterate what I said here before. The 
Afghans right now see us as their friend. They count on friends 
very heavily. They do not see us as intrusive. They see us as 
those who have helped them to rid themselves of the terrorists 
and the Pakistani volunteers and the Pakistani military, which 
they did not want in their country.
    I think it is very important that we remember that, and we 
need to avoid disappointing our friends. Remember, in the last 
two big wars, the cold war and the war on terrorism, the big 
wars, the Afghans were our allies. They lost over a million in 
the last big battle of the cold war. Who won that war? We did. 
Who lost it? The Soviet Union. Who were the victims? One 
million Afghans dead, one and a half million Afghans severely 
wounded, 7 million Afghan refugees.
    We have talked here in this meeting today about the fact 
that we kind of dumped them in the nineties. Now again, they 
are our allies in this war, the first campaign in this war on 
terrorism. They are our friends. Let us show them how Americans 
can also be friends. Let us uphold the ideal of that poem that 
I read, just as I know the Afghans will, given the chance.
    Thank you for that question.
    Senator Hagel. Thank you.
    The Chairman. Professor Gouttierre.
    Mr. Gouttierre. Tom.
    The Chairman. You are a real sophisticated guy and you know 
what is significant in Afghanistan and I know you must have a 
sense of what is going on politically here. There is a debate 
that--I cannot say with certainty. I can tell you, after 29 
years being here, there is a debate within the administration, 
among the Members of Congress, as to what our role really 
should be when it gets down to the detail.
    Everybody is going to say, you said there is great 
agreement, and there is. It is interesting, and I am really 
pleased the President early on--I cannot remember whether Chuck 
was with me or not, but a couple of us were down with the 
President and he asked what should be done, and one of my 
colleagues had said to me in a different context: You know, he 
said--and I repeated it. I said: Mr. President, when World War 
Two started, we were getting beaten and Roosevelt had the 
foresight to assemble a group of men in the basement of the 
White House and say: Tell me what we do, how we reconstruct 
Europe.
    People said: Wait a minute; we have not even--I mean, we 
are still getting beaten in battle after battle, and you are 
asking us to put together a plan for the reconstruction of 
Europe.
    I said: Mr. President, that is what you should be doing 
now, put together a plan for the reconstruction of Afghanistan. 
He not only welcomed it, he had indicated he had already been 
thinking about it and he had begun it.
    Without identifying the party, after one long meeting with 
the President asking me very pointed questions, not because of 
my particular prowess here but just because I guess I represent 
sort of the leadership of the other side of the political 
equation here on the foreign policy equation, asking me and us 
finding ourselves very much in agreement, and as I went out a 
very prominent member of the White House followed me down the 
hall and said: Are you going to stop and talk to the stakeout, 
the press where they wait for us when we walk outside. I said: 
I do not have to.
    He said: No, we want you, to show that we are talking, it 
is bipartisan; but I hope you will not mention nation-building. 
I said: You mean what the President talked to me about for the 
last hour and 20 minutes? He said: Yes, yes, that is what I 
mean. I said: No, I will not mention nation-building.
    The point is there is a real struggle here to define how 
you cut the political knot the President faces. Like Democrats 
face on the center-left, there is one faced on the center-right 
now. That is: OK, we are not going to nation-build because 
Clinton did that and we spent 8 years beating the living 
bejeezus out of him for doing that, so we are not going to do 
that, but we have got to be in there with both feet or we know 
nothing is going to happen.
    So this is going to get tricky. This is going to get 
tricky. One of the things that I want to ask you, just a broad 
question. I am going to make a statement and then you tell me 
whether--take off from the statement any way you feel that is 
appropriate.
    I cannot envision any realistic prospect of us meeting the 
goal which you have heard articulated by Democrats, 
Republicans, administration and Senate, which is that we want a 
stable Afghanistan where all the ethnic groups are represented, 
where women, who represent close to 60 percent of the 
population, over 55 percent of the population, where women--and 
I can see someone saying 65. Well, I know it is over 50 and I 
hear 55, 60, now 65. Anyone for 70? But a super-majority of the 
population.
    We all say these things, and you say the Afghan people are 
our friends and care about us and like us and look for us to 
lead. My experience with being deeply involved in another part 
of the world where there were deep divisions based upon 
originally tribal backgrounds, although with a patina of more 
sophisticated, only the patina, though, of more sophisticated 
institutions, is that they are fully aware that in the near 
term they are not likely to be able to resolve the really hard 
questions, and they want somebody they trust coming in and in 
effect laying down the law when they cannot agree.
    Second, it appears to me that the Six Plus Two is not a 
workable solution. Ask my friend right here who spent time in 
Afghanistan during that period that you were there realizing it 
does not work--it did not work. Let me put it this way: It did 
not work, not likely to work.
    So I guess my question is--and we all say we want and need 
to deal with the six-plus million people who may be seriously 
physically injured and-or die as a consequence of not getting 
enough nutrition. All the goals are the same. Everybody states 
they have the same goal. Is there any way the near-term and 
long-term goal in your view can be met without very specific 
U.S. leadership?
    In a speech written for me by the gentleman behind me on my 
immediate right, before the administration asked for the $320 
million in aid, I went to the floor and suggested we commit a 
billion dollars right then and there to show our good faith, to 
actually deliver it, to deal with taking up the immediate need, 
which we did not know would not last all winter, to take care 
of the entire ticket, which we could afford to do. That in my 
view would then generate genuine response from other countries.
    I will conclude by saying this: I cannot think of any time 
that I have been in this committee where on matters relating to 
the aftermath or the ongoing physical conflict in a country 
where anything has been resolved without U.S. leadership. I 
cannot think of one, not a single one. That leadership has been 
that we usually have forces on the ground. We want to run the 
show; you usually have to have somebody with an American flag 
on his arm on the ground. When it talks about aid, we have to 
come with the first down payment. When it talks about political 
stability, we have to be the one in there doing it.
    Talk to me for a moment about what is the U.S. role, not in 
this broad generic sense about, well, we have to lead. Give me 
some insight as to how much of the nitty-gritty are we 
responsible for putting together in these various political, 
economic, emergency aid as well as rebuilding as well as 
dealing with the physical security.
    Mr. Gouttierre. I can tell you are not going to hear me 
disagreeing with the thrust of your statement. I think one of 
the things we need to do when we look at Afghanistan is to set 
aside this cliche which the phrase ``nation-building'' has 
become. It is like, ``is this going to become another 
Vietnam?'' Let us throw these things out.
    The Chairman. I agree with you.
    Mr. Gouttierre. It is silly, stupid posturing.
    But we cannot escape the fact that we are going to have to 
help the Afghans rebuild their nation. That does not mean we 
have to be nation-building. They have to build their nation, 
but we have to help them rebuild their nation. It has to be 
very, very aggressive action.
    I am apprehensive about the conference in Tokyo in January. 
I think it is a good thing, but every time we go to those 
conferences we get together and we say: Now, what are we going 
to do? As soon as we say that, the United States is first 
saying, and the Afghans will know it, we are trying to do it on 
the cheap and we are not trying to do it in the same forthright 
way that we conducted the military campaign.
    It is good that it is co-chaired by the United States, 
Japan, EU, and Saudi Arabia. But we need to go in and say: Hey 
guys, we are putting down $10 billion and we need to rebuild or 
help rebuild, reconstruct Afghanistan. If we do not do it that 
way, you are right, I do not think it will get done.
    Again, $10 billion, $20 billion, it is a sound investment 
in terms of our foreign policy interests in that part of the 
world and throughout the Muslim world. It is also a sound 
investment in the kind of global world we want for our children 
and grandchildren. Let us face it, we cannot have it if there 
is instability in Afghanistan that spreads into Pakistan and 
Central Asia and continues on in the Persian Gulf.
    So not to go on, but just to confirm what I said earlier, I 
am not going to disagree with your thrust. I believe it firmly. 
The Afghans are not concerned right now that we are trying to 
impose America upon them. They are concerned that we do 1989 
again and we kind of drop them.
    They want us to be their friends----
    The Chairman. Everyone I have spoken to, except 
occasionally my collective staff, I got the same response you 
said here today: They are not looking for an all-Muslim force.
    Mr. Gouttierre. No, they are not.
    The Chairman. As a matter of fact, I am getting the 
opposite.
    Mr. Gouttierre. Just the opposite. They want the opposite 
and they will tell you that. I am sure Fatima will say the same 
thing. The Afghans want the best peacekeeping force for the 
future of Afghanistan. They want the friendship that we have 
provided in the past.
    I lived there 10 years. I never heard an anti-American 
statement ever in those 10 years. I coached basketball teams 
and I was successful and I did not even have players yelling at 
me in opposition in that regard. The Afghans understand what a 
good friend can be. They are hoping and dreaming and praying 
that we have learned ourselves from our mistakes this last 10, 
12 years, and that we see this as our window of opportunity, as 
well as their window of opportunity.
    The Chairman. Knowing how seriously Nebraska takes its 
sports teams, I will not ask you whether you were there to 
recruit.
    Mr. Gouttierre. Well, I would recruit for the Afghan 
national basketball team, which I would like to coach once 
again, and also the University of Nebraska at Omaha hockey 
team, which is a division one hockey team and is ranked 
nationally right now.
    The Chairman. I know, I know, I know, I know.
    Mr. Gouttierre. You opened the door.
    The Chairman. I know, I know. And I am not even from 
Colorado.
    Look, let me ask one last question and then yield the rest 
of the time to my friend from Rhode Island. Our next witness is 
from a respected--is respected in her own right, but from a 
very respected family as well, and a Sufi family. The Wahabis 
and others have been the more radical, represented the radical 
elements.
    Tell me a little bit about, which we have not talked much 
about, how much of the division that exists between and within 
Pashtun and the other three major ethnic groups is a reflection 
as much of a division based upon Islam as much as it is 
geography? How much of a role is this going to play as this 
gets played out in Afghanistan?
    Mr. Gouttierre. I remember Islam when I was living in 
Afghanistan as essentially a positive force. What was the case 
in Afghanistan, although nobody would officially admit to it, 
is that there was a kind of separation of church and state at 
that time, that the real state was led by the khans and that 
the church, led by the mullahs in a sense, was really in that 
traditional arrangement subservient to the secular state. I 
think it was a healthy arrangement. That is because it was not 
an extreme period. Extreme periods tend to bring people moving 
more to fundamentalists.
    You have talked about Fatima Gailani's extended family and 
one of those moderate traditional leaders is from that family 
and takes a look in a moderate, constructive, progressive way 
for the role of women and others.
    The Chairman. But how much does that represent? What I am 
trying to get at is----
    Mr. Gouttierre. I am getting to that, and that is this. 
There is a difference in Afghanistan in that not all Muslims 
are Sunni. There is probably more than most Sunnis would admit 
in the Shia sect, probably somewhere in excess of 20 percent. 
One cannot really know right because past censuses are not 
valid at the moment.
    But in any case, it will be very necessary for the Afghans, 
when they draw up their future, to draw it up in such a way 
that that minority Shia population does not feel that, because 
there has been a decision to take a Hanafi or Sharia form that 
is based on the beliefs of the Sunni majority, that they are 
again going to be discriminated against, as they were in the 
past. That is an issue.
    Right now the most important and significant, the immediate 
future issue, is the impact over the last 20 years of extreme 
crises in Afghanistan, which has tended to move people toward a 
more conservative, actually more fundamentalist form of Islam 
in Afghanistan. If Afghans see opportunity, if we help 
Afghanistan, Afghan citizens, to feel that there is hope to 
work among themselves, they are very practical people. I always 
found them, though good Muslims, not to be extreme when I lived 
there.
    In a traditional form of society and government, they would 
naturally evolve again to a more practical approach to Islam 
than this extremist stuff we have seen. To a degree, we have 
seen some of that discredited by the last 10 years in 
Afghanistan, particularly the last 5 years, with the intrusion 
of Osama bin Laden and the Arabs who were trying to enforce 
extremism through this Ministry to Promote Virtue and 
Extinguish Vice. Afghans are aware of these things.
    But again, we are talking more about the urban Afghan who 
came into play with this than the rural Afghans. In many ways, 
they continue to go on in some ways with their lives as they 
have for decades and centuries. It is the urban areas in 
Afghanistan that really do drive the reconstruction and the 
development of that country.
    In Afghanistan, you have heard about all these, the 
Pashtuns, the Farsiwans, Tajiks, the Aimq and the Hazaras, et 
cetera, the Uzbeks. The one population that nobody talks about, 
and it is my favorite population, is the Kabuli Afghan. This is 
the Afghan who came, no matter what the ethnic group, to Kabul 
decades ago and they became Kabulized. They became 
intermarried. They became Afghanistan's melting pot.
    That is what was bringing progressive life, a progressive 
form of life, reform, development, education in Afghanistan. It 
was not imposed. It was offered as a resource. People came to 
Kabul for that. We have to help the Afghans to be able to 
reconstruct that resource. I think that is very, very 
important.
    Like other Kabuli Afghans, Fatima's family will say that it 
descends from a lineage that goes back to the Prophet Mohamed. 
Others will say they are Pashtuns from Kandahar. But many of 
them have never lived there. They have lived in Kabul and for 
all intents and purposes, like the King, who speaks Persian, 
not Pashto--he is a Pashtun--they have been Kabulized. That was 
the driving force for Afghanistan's development and it was a 
driving force to bring a melting pot of Afghans together. That 
is what we have to hope returns as part of the whole 
reconstruction process.
    The Chairman. Some would argue that was a driving force for 
the splintering of Afghanistan as well, though, is it not?
    Mr. Gouttierre. Well, that is another story. One has to 
harken back to the politics of the sixties and the seventies. 
The splintering began when a member of the royal family staged 
a coup in revenge because he had been bounced out 10 years 
earlier.
    The Chairman. I am trespassing on your time.
    Mr. Gouttierre. You do not want to go back through that 
kind of history.
    The Chairman. No, I do, but I am going to ask you to maybe 
come back at some point so we can go into more detail on this 
aspect of Afghanistan, so we educate this body more. People 
here have one vision of Afghanistan. The idea that women held 
office, that women had responsible positions, that women were 
totally integrated, that women were educated and went to the 
university is something that is sort of counterintuitive to 
Americans now because of all that they have been exposed to.
    So when we say we want to reconstruct and we want women in 
society, I have Delawareans say to me: Well, wait a minute; let 
us not go overboard here. They should be, but look, I am not 
sending my son over there for you to reconstruct and modernize 
a country. And I say: No, no, no, no; all I am trying to do is 
get Afghanistan in a sense back to where it was in the sixties 
and early seventies, and they will take care of it from there 
themselves. And people go: What? You mean to tell me--so we 
have an education process under way.
    But now I have gone way beyond my time and I have 
trespassed on our next witness, but, most importantly at the 
moment, on my colleague's time. So the rest of the time is 
yours and then we will excuse you, dean.
    Mr. Gouttierre. Thank you.
    Senator Chafee. So what is the status, Mr. Chairman?
    The Chairman. The status is you have as much time as you 
want to question the dean, who is going to then go catch a 
plane, and then we are going to hear from----
    Mr. Gouttierre. No, he is going to go to another hearing.
    The Chairman. Well, if I knew that I would not dismiss 
you----
    Mr. Gouttierre. In the Rayburn Building.
    The Chairman [continuing]. Because no other hearing could 
possibly be as important as this hearing.
    Mr. Gouttierre. That is true. That is why I stayed.
    The Chairman. Fire away.
    Senator Chafee. I have heard and admired your testimony and 
I look forward to hearing from the Rhode Islander next.
    Mr. Gouttierre. I would like to close with a statement 
relating to the women of Afghanistan, and I know that Fatima 
will make important statements about the status of Afghan 
women. I was the first male to coach an Afghan girls basketball 
team and to set up and organize a girls high school basketball 
league.
    As the head of the Fulbright Foundation in Afghanistan, I 
was the first one to be successful in persuading the Afghans to 
send Afghan girls on AFS programs. During the war with the 
Soviets, we had teacher training programs for women even when 
we were being threatened and the women were being threatened by 
the Arabs and others in Pakistan in the refugee camps. I could 
not agree more with those who have said that the education, the 
training, the equality for women in Afghanistan is key, very, 
very key, and I believe that from the bottom of my heart.
    I have lived with these people since 1964 and I feel women 
are the ones who have been the most severe victims of these 
last 28 years of improper rule in Afghanistan. So maybe I will 
conclude with that and thank you very much for the time you 
have given me today.
    The Chairman. I thought you were going to say that you 
coached Ms. Gailani and she could play in the WBA. I thought 
you were going to tell me that.
    Mr. Gouttierre. I did not coach her.
    Ms. Gailani. But my classmate was with you.
    Mr. Gouttierre. That is right, Fatima. That is right, 
Fowziah Usman. By the way, she was 6 foot 1 and she was a 
center on my team, and I will tell you they were hell on 
wheels, and they learned how to play basketball from their 
brothers.
    The Chairman. Thank you for your commitment and sticking 
with it, and we will continue to rely on you as a resource.
    Mr. Gouttierre. Thank you.
    The Chairman. Ms. Gailani, I thank you very much for your 
indulgence and I am very interested and anxious to hear your 
testimony. We have as much time as you have.

STATEMENT OF FATIMA GAILANI, ADVISOR, NATIONAL ISLAMIC FRONT OF 
                          AFGHANISTAN

    Ms. Gailani. Thank you. Thank you very much for inviting me 
here. I would like to start by saying that the people of 
Afghanistan are really sorry and hurt the way the Americans 
were hurt by the September 11 incident, the same way we are 
hurting when our country is bombed by our own friends.
    The only way that will console us on what happened in 
September is that we achieve something in Afghanistan and get 
rid of the terrorists forever and an explanation for the people 
of Afghanistan, those who were directly bombed and hurt and 
lost loved ones that here it was necessary, but here I give you 
peace and stability, a normal life.
    Twenty-three years of war in Afghanistan brought lots and 
lots of misery upon our country. From the underground 
irrigation systems to schools, hospitals, roads, everything, 
everything, our forests, national forests were destroyed. Also, 
women's situation in Afghanistan. They became corpses all of a 
sudden, slowly but all of a sudden during the Taliban.
    The conference in Bonn did open a window for women. It was 
good--although I heard two people, but there were five women 
present in that meeting, three in the capacity of delegates and 
two in the capacity of advisors, and I was one of the advisors.
    This conference gave us hope, especially the opening 
speeches. When Mr. Qanooni started his speech I thought, my 
God, we do not have any problem; maybe in 3 days time we will 
pack up and go home, because he was so flexible. He claimed 
that there was nothing they wanted, all they wanted is peace 
and stability and forming an interim government which will be 
really broad-based.
    When the negotiations started, I was a bit scared, because 
first we had a problem over the presence or not presence of 
peacekeeping forces in Afghanistan. We had a good 2 days spent 
on that. With the exception of the delegation of the Northern 
Alliance, the three other delegates, they were absolutely firm 
upon it that without peacekeeping forces, an independent force, 
in Afghanistan, the government cannot work. I want to add upon 
that that women could not have a normal life, because we had 
experiences even with Northern Alliance.
    Then negotiating, we had meetings room to room and without 
a visa, without an airplane, from Peshawahr we were going to 
Cyprus, from Cyprus to Rome. These were the rooms, our offices. 
One was called Peshawahr, the other Cyprus, and Northern 
Alliance, and Rome. So we were just in a matter of a few steps 
entering from Rome to Cyprus, from Cyprus to Peshawahr.
    We solved lots of problems. Then we were told by the 
Ambassador Brahimi that we had to come up with a list of 
government. He emphasized that these people would have to be 
competent, educated, and also, if possible, not belong to any 
of the political organizations. If a competent person happened 
to be one of the organizations, that is fine, but otherwise we 
should try not to have them there.
    The result was--I am telling you the truth--I was a bit 
shocked. Seventeen seats went to the Northern Alliance out of 
30. I had hoped maybe five very important posts and then ten 
altogether. But 17? So it would have been better if we had had 
the meeting which had happened in Rome, the Northern Alliance, 
and the office of the ex-King, 50 then, 50 that. It would have 
been even better.
    Why should you bother with us being there and not even 
offer anything, which we deserved, because the only mistake we 
have done is that we put our arms down when the war against the 
Soviet Union finished and we did not participate in the civil 
war.
    During the civil war when you define the government----
    The Chairman. Would you define for the record what you mean 
by ``we''?
    Ms. Gailani. The majority of the people who did not 
participate in the civil war. We were not with the Mujaheddin--
we were not with the Taliban, we were not with the Northern 
Alliance. We were the Mujaheddin or people who were civilian 
refugees who did not take sides.
    Some of our very strong Mujaheddin preferred to put down 
their forces and accept what was coming from the initiative of 
the United Nations, something very similar to what we have 
today. But then unfortunately some of our friends had a coup 
and we know what happened.
    Well, anyway, I have criticism upon this list. I wish it 
was better than that. I wish the Northern Alliance had 
introduced a few women. We have two women in this government, 
one introduced by Rome, the wonderful lady that Dr. Gouttierre 
talked about, and the other one, who is also a surgeon, who was 
introduced by us, who is also a very remarkable and capable 
woman. But no women from the Northern Alliance, although they 
had 17 seats. Our organization, the Peshawahr Group so it is 
called, out of three seats we gave one to a woman.
    But in spite of all that, I still have hope. I really have 
hope that this government will succeed. Mr. Qarooni is a very 
capable person. Also, I know a few other people from the 
Northern Alliance. We were colleagues during the jihad, and I 
have every faith that they will be very successful in their 
job.
    Also, Mr. Karzai, whom I have never worked with, but I have 
heard that he has a strong personality and indeed he is a 
Pashtun who does not want to belong only to his own part of 
Afghanistan, but he wants to be shared by everyone.
    Now we come to the situation of women. This is the only 
opportunity we have to take women back where they used to be, 
as the Senator said. We want to go back to the democracy time. 
I am the generation of the democracy time. When I was at 
school, I was 100 percent sure that every door will be open for 
me, any opportunity, any seat, as long as I train myself and I 
educate myself to be worthy of that seat. I had taken it for 
granted, and you know that I was mistaken.
    This time we want guarantees for peace in my country, but 
above all support for women and eventually a democracy. The 
subject of democracy was not mentioned by any of the panelists. 
I strongly believe that the Afghan people can have democracy. 
We always say that the Afghan people have their own mind. If 
you have a strong mind, then democracy is the answer.
    I believe that 10 years of democracy in Afghanistan did 
work. I remember that my parents were reading newspapers and 
magazines, Western magazines and newspapers, commenting that, 
how wonderfully these people go to the ballot boxes, as if they 
have done it all their life. Because this is a want of any 
human being, of course they wanted to go to the ballot boxes.
    When we have democracy, I have no fear for women's status 
and I have no fear for ethnic, religious minorities in 
Afghanistan, because no matter how extremist one person is, his 
idea will be worth only one vote.
    Now, what provisions should we have for women in the 
future? As much as I am grateful for lots of women activists in 
the West to support us, they were the only ones who raised 
their voice when the governments had forgotten us or they did 
not have time for us, but I am also cautious that the Western 
feminism cannot work in Afghanistan.
    Even if--I am a secularist. When I go, which eventually I 
want to be in the parliament hopefully. When I go and ask 
people to vote for me, if I tell them that I have a secular 
ideology, these women will not vote for me, let alone men.
    But during the democracy of Afghanistan from 1963 to 1973, 
we proved that an Islamic constitution can give these 
opportunities for women to have equal right of education, equal 
right of work with the same pay for the same job, and equal 
opportunity of political participation. I remember I was maybe 
9 or 10 that they were working upon how could they pay equal 
pay for men and women, and I remember a jurist said that when 
the wife of the Prophet, who was a cobbler, was making shoes, 
were her shoes made by her half price of a shoe that was made 
by a man? Of course they said no. Then they said, then why a 
teacher should take half price or a female doctor or so on?
    So at that time in France women were fighting for having 
equal pay. We had it. When we had women in the senate, in 
Switzerland women could not vote. We do not want or ask for 
stars. We want what we had and we want what we deserve.
    I strongly believe that some of our women who are financed 
or whatever by the Western sort of feminism should be a little 
bit cautious, the American friends and the Afghan friends, 
because the situation is so delicate. If we harm this process 
even a little bit, it could create big problems. I believe that 
I have enough evidence in Islam that we could support all these 
rights for women from the Islamic way.
    Yes, the Bonn process was not perfect--I close by this--but 
I accept it and I would like to see this as an opening door for 
all of us. I do not believe that--some people say women were as 
tokens there. They were strong women and they were committed. 
One thing that we had no problem in Bonn, it was women's 
issues. Maybe only 10 minutes spent on it, because they all 
agreed, which is very good.
    So I say it again: Do not forget us, because if you forget 
us we will have another problem and that problem will harm lots 
of people outside Afghanistan's boundaries. Thank you.
    The Chairman. Thank you very much.
    Out of courtesy to my friend from Rhode Island, maybe I 
will let him begin, since you are in Rhode Island these days.
    Senator Chafee. First of all, thank you, Mr. Chairman, for 
choosing such a distinguished witness, a woman who brings a 
compelling perspective and ability to comment on recent events 
in Afghanistan and how that nation can prosper in the future. 
So thank you.
    I am curious about the rise of fundamentalism across the 
Islamic world not just in Afghanistan with the Taliban. What do 
you believe are the root causes of Islamic fundamentalism?
    Ms. Gailani. In Afghanistan it is a totally different 
matter. I was a student in Iran when the Iranian Islamist 
revolution started. I believe that, I strongly believe that, 
lack of having healthy political parties in our country pushes 
us to underground politics. At that time it used to be Islam 
and communism and now it is just Islam.
    We are educated, whether if it is in Arab countries, in 
Afghanistan, or anywhere. The way that we are educated really 
is Western education. When you learn all that, then you need to 
express it. When you express it, you need parties to express 
upon. So if you do not have these opportunities, then you go to 
extremism.
    I remember during--before democracy in Afghanistan, there 
were two underground parties, the Islamists and the Communists. 
They were really working hard. They were trying to recruit 
people from big families, influential rich families. This is 
exactly what the Islamists are doing now in the Muslim world. 
This is exactly what is happening.
    I remember that I was sent by my father to come here 18 
years ago to show our worry about recruiting these non-Afghans 
in jihad. Most of these people were quite rich, well off 
people. I tried so hard to convince people here that we do not 
need foreign fighters, we have enough fighters; we just need 
defensive weapons.
    I think in the other countries it is really lack of 
expressing their politics. In Afghanistan what we see with the 
Taliban, it is an imported product. Afghanistan became a nest 
for all kinds of nasty people, and some of our Arab friends did 
not help that very much, because they would say to these 
naughty boys: Take this toy, go and play in my neighbor's yard; 
leave me have my siesta. That other yard was our country.
    In Afghanistan the war between the rivalry of Wahabism and 
Shi'ism was fought. The supremacy--the rivalry between the 
regional supremacy of Iran and Pakistan was fought. Any war 
anyone had in that region was fought inside Afghanistan. The 
same thing, the Taliban or al-Qaeda or whatever came in 
Afghanistan, not because the people of Afghanistan wanted it. 
It became as a nest for these people.
    Senator Chafee. I suppose that question could be answered 
in weeks and months.
    The Chairman. Well, I think it is a pretty good answer. I 
know you do, too.
    Senator Chafee. A complex question. You mentioned the rise 
of Western influence, and you spoke about the delicate balance 
and possible resentment of Western influence in the country. 
Whether that will galvanize further fundamentalism is, in my 
view, one of the challenges for the West.
    Ms. Gailani. I do not have a fear from that at all. 
Actually, again we are lucky that we did have the experience of 
those 10 years of democracy. I heard it from one of our quite 
hard-liner Muslim Mujaheddin leaders--by the way, I studied 
during the civil war--I had the choice between having a nervous 
breakdown or studying something else, so I studied Islamic 
jurisprudence. When he heard that I was studying this, he said: 
That is wonderful, but I tell you one thing, that the 
constitution that we had in Afghanistan, it was the best 
mixture of Islam and modernity. It was created by the best 
jurists we had in Afghanistan plus a French expert in law and a 
very big share from Al-Azar University from Egypt.
    The person who was behind that constitution, Mohamed Musa 
Shafiq, was a jurist, happened to be the last Prime Minister of 
the ex-King and he proved to be the most modern and the most 
progressive Prime Minister we had. Professor Gouttierre has 
written a beautiful chapter in a book about him, that because 
he was successful, because democracy was working, because Islam 
and modernity showed such a strong bond, the coup happened in 
Afghanistan, first with the front, President Daoud, and then a 
Communist coup.
    So I have no fear of any other backlash. Just give us 
democracy and you will see that we will show you wonders.
    Senator Chafee. I applaud your confidence in democracy, I 
really do.
    The Chairman. Well, I applaud your courage. I will be 
brief. You state the conundrum, Islam and modernity. You talk 
about them, as everyone else does, as if they have to learn to 
live with one another and they are not one and the same, that 
Islam has had difficulty absorbing modernity, becoming modern, 
and democracy is associated with modernity, with modern.
    The thing that I always find, the conundrum I always find 
myself when I listen to Islamic experts like my friend Jonah 
Blank behind me, who is a former Harvard professor of 
anthropology and a student of Islam and a professor, is that on 
its face, that conundrum, that democracy is not in the eyes of 
those what do not understand, or maybe understand, Islam is 
inconsistent with Islam. It has been something that has not 
been embraced very many places.
    So the concern I think raised by Senator Chafee as I read 
it is a concern that I have. There are three things which you 
seem to have said today. One is that all agree that there must 
be a society in Afghanistan at least open enough to accommodate 
different views and political outlets for people's views, 
extreme or otherwise, and that it must embrace women in terms 
of being full participants, but it must not do it the Western 
way, it must do it the Islam way.
    My question to you is is not democracy per se the Western 
way, or is it consistent with Islam? Because one of the things 
that--as a Christian and a Catholic, I went to a religious 
school. When you misbehave in school, the religious teachers, 
the nuns, would make you stay after school and be disciplined. 
The way you were disciplined was writing on the blackboard a 
number of times something you were supposed to absorb.
    Senator Chafee. Did that ever happen to you?
    The Chairman. It happened to me quite often, quite often.
    One of the things that I used to have to write, I can 
recall writing it 500 times while I could hear everyone else 
out on the playground playing baseball while I was writing 
this, it went like this. It said: The road to hell is paved 
with good intentions, because I would find myself saying, why 
did you speak up in class, Mr. Biden, and I would say: Well, 
sister, I was trying to settle that argument behind me. And she 
would say: You may have had a good intention, but you are 
paving your own road to hell here, not literally but 
figuratively.
    We have good intentions right now. The women on this 
committee, the women in this body, who are very much part of 
Western feminism, have very good intentions to help women in 
Afghanistan. One of the hardest things that is going to occur I 
think is us figuring out how we help without interfering.
    How much of an impact on the deliberations in Bonn that 
resulted in all agreeing that women would have a place in the 
new government was a consequence of a dicta coming from this 
administration saying: By the way, there is no alternative 
here; you must include women. How much of it was a consequence 
of that versus just a spontaneity among the players?
    Because, as you know much better than I, it was not only 
the Taliban that has mistreated women. The Northern Alliance 
when it held power, many elements of that coalition treated 
women with alarming brutality. Some groups imposed restrictions 
hardly less extreme than the Taliban, and rapes and sexual 
slavery and so on.
    So how much of it was a consequence of a Western power 
imposing a dicta on all of you assembled and how much of it was 
just pure spontaneity, love and generosity?
    Ms. Gailani. It all came by force, and I am happy it did. 
During the time of jihad, I was the only woman in the Afghan 
politics, not because other women did not know and could not 
achieve better than I did, but only because I had a religious 
family behind me and a father what wanted to show that it was 
all right. Because he was a religious leader, he was not 
questioned.
    We tried so hard, we tried so hard to bring more women in 
the politics of the Mujaheddin. We did not succeed because at 
that time, if you remember, in spite of our struggle, the trend 
was that help whoever has the biggest beard and the biggest 
turban. That was the fancy of the Western countries, especially 
here, unfortunately.
    We were totally marginalized, only because in the eye of 
the Western countries, especially here, we looked Western. They 
forgot that they have friends in Afghanistan, strong friends. 
They looked for higher people and those higher people happened 
to be the most radical of the Islamists we saw in the country.
    I still do not know why you have done that, and I am happy 
that it has stopped and you helped us to stop it. Yes, the 
situation of women in Bonn was forced upon all of us. We 
welcomed it. Our organization could not bring any women because 
we had only 3 seats and we had 15 organizations and parties and 
Mujaheddin tribesmen under the umbrella that my father has now 
and we did not know how to push a woman. So I virtually pushed 
myself in this conference as an advisor.
    Those people that had 11 seats, the King brought 2, which 
was very good, and the North brought only 1.
    The Chairman. There's another Western expression that seems 
appropriate here: Be careful what you wish for, for you may get 
it. I am not being facetious when I say that. In a democratic 
Afghanistan, do you believe that women will be represented? I 
know they represent more than a majority of the population. Do 
you think that the participation of women, who I would think 
after 20-some years might be understandably less courageous 
than you and understandably more reluctant to engage in what we 
saw on the television, whether it is true or not--and let me 
make it clear to you, I do not profess to be an expert on your 
country. I am chairman of this committee, the most vaunted 
position in foreign policy in our government other than in the 
administration.
    I have spent my academic and my political career mastering 
strategic doctrine and U.S.-Soviet relations and ``the Middle 
East'' as it relates to the Palestinian-Israeli struggle and 
Europe generally, et cetera. But I do not profess to have an 
expertise.
    But what I observed on the international broadcasts were 
when the Taliban was driven out of Kabul men flocking to barber 
shops in resistance to shave off their beards, but none of that 
happening in rural areas; women still wearing burkas in rural 
areas, whereas in Kabul women defiantly demonstrating that--it 
is like there is a mantra in a child's fable, ``Ding-dong, the 
witch is dead.'' Everybody can come out now. Well, ding-dong, 
the Taliban has gone, I can take off my burka.
    But that did not happen other places. So I guess what I am 
asking you is--and I realize it is asking you to be a bit of a 
fortuneteller--is how long do you think it will take and what 
circumstances have to exist to provide an environment where, 
even if there is a democracy, women will feel the confidence to 
come forward without fear of being raped, molested, beaten, 
subjected to indignities, and-or just shunned?
    Ms. Gailani. I challenged once a representative of the 
Taliban on radio BBC that I am going to study Islamic 
jurisprudence, and I did it. Now, Senator, I challenge you that 
in a democratic Afghanistan, you choose the area, I will go and 
compete in an election with any man, against any man you 
choose.
    The Chairman. Hey, I will manage your campaign. I am for 
you, kid. I am with you. I can tell you are a winner. I do not 
have any doubt about that. But all kidding aside, how do you 
get women?
    Ms. Gailani. I am not kidding. I am very serious about 
that.
    The Chairman. I know you are.
    Ms. Gailani. In the past in Afghanistan, we had four women 
in the first parliament. Only one was from Kabul. The three 
others, they were nominated from their own villages, from 
provinces, and they won.
    The Chairman. I do not doubt that. All I am saying is that 
you have had more than 2 decades of misery and subjugation and 
brutality that women have been the victims of.
    Ms. Gailani. We had brutality not only upon women. We had 
brutality, period.
    The Chairman. I know that. But I am just focusing on that 
for the moment.
    Ms. Gailani. This is an artificial environment that in 
Afghanistan today we live. This is an artificial Afghanistan 
you see. As I said earlier, every battle was imported in 
Afghanistan by those people who were greedy to find some money 
and brought these things.
    I assure you, if we pave the way, which I said paving the 
way has to be from the Islamic point of view--we should have a 
radio. We should have a radio with programs that women should 
know about their rights. Men should know--men are ignorant. It 
is not just because women are ignorant.
    The Chairman. All of us.
    Ms. Gailani. In Afghanistan.
    The Chairman. No, here as well occasionally.
    Ms. Gailani. Men are ignorant of the rights of their wives, 
sisters, and brothers, as much as they are ignorant of their 
own rights within Islam. So we need these, whether you call it 
propaganda, whether you call it enlightenment, whatever you 
call it, whatever you like. I do not care, as long as we have 
these programs that will talk to the nation, talk to the 
people, to tell them that as a Muslim how could they live a 
democratic life and how as a Muslim they could give opportunity 
to the women because this is an order from God.
    The Chairman. To use your phrase, I would love to have an 
opportunity, when you have the opportunity, to spend some time 
with you and my staff and some of my colleagues in an informal 
setting in my office to discuss just that.
    I will end where I began my questioning with the professor, 
where I ended my questioning with him. I asked him how much, as 
you recall, 20 minutes ago I asked him, how much of the 
divisions that exist on public policy within Afghanistan are 
reflective of adoptions of different versions of Islam as 
opposed to their tribal lineage, and how do they intersect.
    I have tried my best, and I have a long way to go, through 
Jonah Blank and others on my staff who are scholars on and 
relating to Islam, as well as those who are practitioners, to 
educate myself more about Islam. As my mother would say, a 
little bit of knowledge is a dangerous thing. I have a little 
bit of knowledge and I suspect maybe a little bit more than a 
little bit of knowledge.
    But there are such interesting parallels between the bitter 
and bloody and divisive fights that exist within Christendom 
among Christians over the interpretation of the Bible, that I 
see from the historical perspective the same thing occurring 
from the fourth caliph on within your religion.
    So what I need to be educated more about, and I hope there 
are members of this administration who I have respect for what 
they are attempting to do, attempt to school themselves on how 
much of a part the different readings of the Koran which result 
in different sects, whether it is Sunni or Shia, whether it is 
Sufi, whatever iteration of Islam is the most predominant, 
because, as you point out, you are able to, capable of, and 
willing to debate any member of the Taliban, who is probably 
Wahabi or some other version of Islam different than your 
version of Islam, on what the Prophet meant when he spoke and 
what he wrote down.
    We call that in the West, as you know, a religious debate. 
There is a famous American jurist named Oliver Wendell Holmes 
who said the following. He said: ``Prejudice is like the pupil 
of the eye; the more light you shine upon it, the more tightly 
it closes.''
    I have found as a student of Western religions--and I mean 
that seriously; theology is my avocation--that there are very 
few debates about religion that are resolved based on logic. 
They should be resolved based on logic. I will conclude with 
one example. Even within Protestant sects of Christendom, there 
are wide variations, not resulting in jihad, but wide--even the 
definition of what is meant by ``jihad'' is disagreed among 
you--wide differences between, let us say, Episcopalians and 
Pentecostals on how you read certain, the same paragraph from 
the same Bible.
    There are disagreements about whether or not the way to 
read the Bible is with an educated person translating it, in 
effect, for you or take it literally. I am always reminded of a 
phrase in the Christian Bible talking about, and it goes 
something like this: It is as difficult for a rich man to get 
to heaven as it is for a camel to get through the eye of a 
needle.
    There are very deeply devout, honorable, decent 
fundamentalist Christians who believe that is literal, the 
Bible said that. Most educated theologians point out to you 
that there is a gate in the wall of Jerusalem, referred to as 
the `Eye of the Needle,'' that camels had to get down on their 
knees to be able to get through, and the reference in the Bible 
refers to that a rich man has greater obligations than a poor 
man because he has been given more, and to those who have been 
given much much is expected in Christendom, and so the 
interpretation is that a rich man better not just enjoy his 
riches himself, he should make them available to his fellow 
man, otherwise he will have difficulty getting to heaven. But 
taken literally, it means a rich man can never get to heaven, 
because no man can get through the eye of a needle.
    You have the same kinds of divisions within Islam in terms 
of interpretations of parts of the Koran. So it gives me hope 
that you are pursuing equity and democracy within your country. 
It gives me pause and concern to think that you must do it 
through Islam, not because I am critical of Islam, but because 
those kinds of in effect religious debates are seldom if ever 
resolved.
    It took Western Europe 500 years of bloodshed to finally 
resolve that they could live together. That is part of my 
concern, and I need to be educated and maybe you would help 
educate me.
    Ms. Gailani. Senator, I did not mean that we should give 
them theology education and come to the philosophy of Islam. In 
Afghanistan we have Sunni Hanafis and Shia Jafadis and 
Ismailis. The Ismailis, as we know, they are open to all sorts 
of democracy and modernization and all.
    In the fiq, in the jurisprudence the majority of people 
have in Afghanistan and the Jafadi jurisprudence, we are very 
close. We are not that far away. The translation or 
interpretation of Koran, there are very few places that people 
differ, very few. But those things that we need inside 
Afghanistan today to open these three doors for women--
education, education is the first order of God to Prophet, to 
read, learn the knowledge of pen, writing. Not Wahabi nor Shia, 
Sunni, whoever, could argue that.
    The Chairman. But they do. They say you should not be 
educated. Am I not correct?
    Ms. Gailani. They say it because they count on the 
ignorance of people and they proved that they could do it so 
far.
    Incidentally, I will tell you that the last debate I had 
with Taliban, again on BBC, or maybe Voice of America, he asked 
me very politely, with all my religious titles, that, would you 
disagree that the honor of a woman should come before 
education? I said: It is not up to you or up to me to decide 
which comes first, which comes second; I have no courage to 
talk on God's word, which says the first thing comes, before 
praying, before Ramadhan, before anything. I said: Would you 
have the courage to say such a thing? The poor man was quiet. 
How could he say that, no, I have a better way than God has? So 
he had to be quiet, because they count upon women's silence.
    The Chairman. Maybe you should manage my next campaign. You 
are very good. You are very good.
    Ms. Gailani. So these are the things. When it comes to 
work, I would say the wife of the Prophet was working as a 
teacher, one of them, cobbler, or whatever; was he doing 
something bad? Did the Prophet allow her to do something which 
was not honorable? Could they say anything against it? They 
cannot.
    When we come to the question of voting and being elected, 
Isaiah was a politician. The Prophet or any of the caliphs, 
when they took the power, they had to ask men and women for 
consent. We have evidence in the Koran.
    So if we could guarantee these three things, I will tell 
you, Senator, that upon that I will build a lot.
    The Chairman. Well, I am confident you will, and I would 
argue that the honor of a woman cannot be met without allowing 
her to be educated.
    But having said that, you are obviously very educated, very 
sophisticated, and very charming. We appreciate the fact you 
have taken the time to be here. We have learned from you. I 
have learned from you, and we will call on you again if you 
would be willing.
    Thank you, and I wish you all the good luck in the world. 
Just remember, some day when you are Prime Minister and you are 
told by your secretary that there is a guy named Biden in the 
outer office with his granddaughter who wishes to meet the 
Prime Minister, you will not say, ``Joe who?''
    We are adjourned.
    [Whereupon, at 1:32 p.m., the committee was adjourned.]
                              ----------                              


             Additional Questions Submitted for the Record


  Responses of Hon. Richard N. Haass to Additional Questions for the 
            Record Submitted by Senator Joseph R. Biden, Jr.

    Question. How much money do you anticipate the United States 
contributing to the world effort for Afghan reconstruction?

    Answer. Afghan reconstruction will require a sustained, generous 
effort by the international community. The United States should 
contribute to the reconstruction effort at a level that will allow us 
to have influence over the process, but that also recognizes the 
substantial contributions we have made as the leading donor of 
humanitarian assistance and in prosecuting the war against terrorism. 
We will not know the full magnitude of the needs until the World Bank, 
UNDP and ADB report on the status of needs assessment missions they are 
conducting, the preliminary results of which will be available for a 
conference in Tokyo in January 2002. Even then, we will need to 
carefully scrutinize these numbers to ensure that the estimates are 
realistic and that the absorptive capacity exists to effectively use 
foreign aid. Nonetheless, we expect that the significant needs for 
Afghan reconstruction will be upwards of $1 billion a year for five-to-
ten years. We calculate that we will need to contribute meaningfully to 
this effort in order to have sufficient weight to guide the process in 
ways that serve our interests.

    Question. Where do you anticipate money for Afghan assistance 
coming from? Will any funds come from a supplemental appropriation 
requests, or will they be taken from existing allocations?

    Answer. We believe existing resources will be sufficient to allow 
the United States to contribute in response to the most immediate 
assistance needs at a level that maintains our credibility, encourages 
contributions by other countries, and ensures ourselves a seat at the 
table as decisions are made regarding reconstruction. For the longer 
term, we will need to await both the results of the full needs 
assessment and the scale of support from other donors before 
determining what resources we are prepared to make available to support 
the reconstruction effort. The Administration intends to engage the 
Congress on issues related to funding these longer-term requirements 
for Afghanistan's reconstruction.

    Question. Without a supplemental request, any dollar spent on 
Afghan relief means one less dollar for some other country. Which 
countries or programs might face reductions in order to fund the 
President's pledge?

    Answer. Afghanistan's reconstruction is fully consistent with the 
strategic interests and humanitarian values of the United States. This 
reconstruction effort should not and need not undercut our other 
priorities, relating to counterterrorism or American foreign policy 
more broadly.

    Question. Are we still fully committed, whether directly or through 
our allies, to establishing security for the distribution of 
humanitarian aid?

    Answer. The Bonn Agreement calls upon the international community 
to deploy an international force to Kabul to ``assist in the 
maintenance of security in Kabul and its surrounding areas. Such a 
force could, as appropriate, be expanded to other urban centers and 
other areas.'' Thus, the mission of the international security 
assistance force (ISAF) will be first and foremost to help maintain 
security in Kabul and environs. The Bonn Agreement recognizes that the 
responsibility for providing security and law and order throughout the 
country resides with the Afghans themselves; we expect that the ISAF 
will work with the Afghans to take primary responsibility for 
establishing security for the distribution of humanitarian aid.

    Question. What is the U.S. Government position on deployment of an 
international security assistance force in Afghanistan? What role do 
you see U.S. forces playing in any international security unit?

    Answer. The United States strongly supports the deployment of an 
international security assistance force (ISAF) in accordance with the 
Bonn Agreement. We are working with the British, the UN and Afghans to 
establish and deploy such a force. The United States will support the 
ISAF by providing lift, logistics, C3I, and access to Bagram until the 
Kabul airport can be readied.

    Question. What sort of timescale do you envision for a security 
force deployment? Are we talking weeks or months? Is there a risk that 
if we delay too long, the facts on the ground might already preclude 
any serious international role?

    Answer. The ISAF will have an initial presence in Kabul by the time 
the Interim Administration is established on December 22. It will take 
a few weeks beyond that date before it can come up to full strength, 
but will do so as quickly as possible.

    Question. How would you describe Russia's actions over the past few 
weeks? We've seen the introduction of between 90 and 200 Russian troops 
to Kabul--is this a positive development? Is Russia playing a 
constructive role, or is it taking positions that could complicate the 
formation of a stable government?

    Answer. Russia is playing a constructive role in Afghanistan and is 
supporting the formation of a stable government there. To the best of 
our knowledge, the small Russian military presence in Afghanistan is 
related to humanitarian assistance and not military operations. This 
includes the airlifting of humanitarian equipment on military cargo 
planes. The Russians are engaged, as are many countries, in the 
provision of humanitarian assistance including medical supplies and 
facilities. We welcome Russian humanitarian assistance to Afghanistan.

                                   - 

</pre></body></html>
